<html>
<title> - [H.A.S.C. No. 113-91] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-91]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                   FISCAL YEAR 2015 NATIONAL DEFENSE

                      AUTHORIZATION BUDGET REQUEST

                    FROM THE DEPARTMENT OF THE ARMY

                               __________

                              HEARING HELD

                             MARCH 25, 2014




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-854                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, http://bookstore.gpo.gov. For more information, contact the 
  GPO Customer Contact Center, U.S. Government Printing Office. Phone: 
  202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1473647b54776167607c7178643a777b79">[email&#160;protected]</a>













                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 John Wason, Professional Staff Member
                 Mike Casey, Professional Staff Member
                          Julie Herbert, Clerk








                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, March 25, 2014, Fiscal Year 2015 National Defense 
  Authorization Budget Request from the Department of the Army...     1

Appendix:

Tuesday, March 25, 2014..........................................    51
                              ----------                              

                        TUESDAY, MARCH 25, 2014
FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE ARMY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

McHugh, Hon. John M., Secretary of the Army......................     4
Odierno, GEN Raymond T., USA, Chief of Staff, U.S. Army..........     8

                                APPENDIX

Prepared Statements:

    McHugh, Hon. John M., joint with GEN Raymond T. Odierno......    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Enyart...................................................    93
    Mr. Wilson...................................................    93

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................   104
    Ms. Bordallo.................................................   102
    Mr. Brooks...................................................   112
    Mr. Conaway..................................................   103
    Mr. Cook.....................................................   115
    Mr. Gibson...................................................   110
    Dr. Heck.....................................................   111
    Mr. Langevin.................................................   100
    Mr. LoBiondo.................................................   101
    Mr. Loebsack.................................................   102
    Mr. Maffei...................................................   108
    Mr. McKeon...................................................    97
    Mr. Nugent...................................................   113
    Ms. Shea-Porter..............................................   107
    Mr. Smith....................................................    98
    Mr. Wilson...................................................    99


FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE ARMY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Washington, DC, Tuesday, March 25, 2014.
    The committee met, pursuant to call, at 10:09 a.m., in room 
2118, Rayburn House Office Building, Howard P. ``Buck'' McKeon 
(chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    I want to thank you for joining us today as we consider the 
fiscal year 2015 budget request for the Department of the Army.
    Secretary McHugh, General Odierno, thank you for being 
here. Our Nation is very fortunate to have both of you in your 
positions at this time.
    General Abrams, who was the 26th Army Chief of Staff, had a 
quote in regards to our failure to properly maintain the Army 
after World War II, and the negative consequences that resulted 
in the early days of the Korean War, and I quote: ``We paid 
dearly for unpreparedness during those early days in Korea with 
our most precious currency, the lives of our young men. The 
monuments we raise to their heroism and sacrifice are really 
surrogates for the monuments we owe ourselves for our blindness 
to reality, for our indifference to real threats to our 
security, and our determination to deal in intentions and 
perceptions, for our unsubstantiated wishful thinking about how 
war would not come.''
    It seems to me that we are ignoring the lessons of history. 
Based on what we know about this budget, the continued impacts 
of sequestration, and General Odierno's testimony during the 
Strategic Choices Management Review hearing last fall, the Army 
is being forced down a path where it will be unable to fulfill 
its title 10 requirements.
    General Odierno has already told us that the Army can meet 
the Nation's defense strategy with an Army comprised of 450,000 
Active, 335,000 National Guard, and 195,000 Reserve forces. But 
to do so would be a fairly high risk. However, based on 
sequestration, the Army isn't heading toward those numbers. 
They are actually heading towards 420,000 Active, 315,000 
Guard, and 185,000 Reserve. That is 60,000 less.
    The defense strategy, reaffirmed in the Quadrennial Defense 
Review [QDR], assumes that future conflicts will involve 
limited stability operations, involve minimal casualties, and 
assume significant troop contributions from our partner 
countries. Therefore, the Department does not have the size of 
the Army for long-duration land wars. I worry that the 
Department is justifying its deep cuts to the Army based on 
this set of unrealistic assumptions.
    We can look to every major land conflict we have been 
involved in to know that we are usually wrong. And we have seen 
how deep cuts to our defense capabilities, especially the Army, 
can result in dire consequences. I fear that we as a nation are 
heading down that path that General Abrams was referring to. 
Wishful thinking is not a strategy to pin our force structure 
decisions upon.
    I hope these sobering remarks remind us to not lose sight 
of our shared values and the vital importance of reversing the 
dangerous budget trajectory. I look forward to your testimony 
here today.
    Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And thank you, Secretary McHugh and General Odierno, for 
testifying before us today and for your outstanding service to 
our country.
    The chairman correctly lays out the budget challenges that 
you face; indeed, the entire DOD [Department of Defense] and 
much of our country faces. It is great that we were able to get 
a budget agreement at the end of last year that gave us some 
appropriations numbers and bills for fiscal year 2014 and 
fiscal year 2015. That certainly was an improvement over 
government shutdowns and continuing resolutions and constant 
uncertainty. But the challenges are still great.
    First of all, those numbers for fiscal year 2015 are very 
tight. We all must remember that a little over 2 years ago, the 
Department of Defense came together, looked at the next 10 
years and said, you know, ``What are the challenges we face? 
What is a realistic look at what the budget should be?'' and 
built a strategy around that budget.
    That strategy, I believe, had 490,000 contemplated to be 
within the Army, and a whole bunch of other strategy decisions. 
It was difficult. Perhaps not ideal. But, it was a strategy 
that most people in the Department of Defense felt could be 
implemented. Well, since that time, that strategy has been 
blown up by further budget cuts, by sequestration, by 
government shutdowns, and all that. And you have had to 
scramble again to try figure that out.
    Make no mistake about it. Everybody on this committee 
should know that this is not the budget that the President or 
you would want. You have been forced into it by the size of the 
budget that has been passed by Congress, both in terms of 
fiscal year 2014 and fiscal year 2015, and then even more dire, 
what could happen if the 8 years of sequestration that are 
still on the books actually happen.
    So, the budget you have put together has reflected the 
numbers that you have been forced to live with. In fact, the 
President has even gone so far as to send up an additional $52 
billion and sort of $56 billion that says, ``This is what I 
would like to spend. Half of that was for defense to show the 
areas where we would like to be able to spend more money.'' 
They put offsets in to cover the cost of that; offsets which I 
realize Congress probably will not accept, but the challenge 
remains.
    Here is the amount of money more we would like to spend. If 
we on this committee want to spend it, find the offsets. Find 
the offsets, make it work, and spend that extra money. If you 
don't, we have to live with the numbers that we have, and there 
are very few Members of this Congress who would say that those 
numbers are ideal or even workable, but it is what you have to 
live with.
    And that is what gets you to the decisions that you have 
made in this budget. And I believe that the decisions are 
sound. They are certainly controversial. When you look at what 
is going on with the Guard and Reserve, that is controversial. 
Bringing the size of the force down to 440,000 or 450,000 is 
controversial. Many of the changes that you have made in terms 
of your air support, in terms of the helicopters, are going to 
be controversial, but they fit within the budget and they make 
sense within that budget.
    And as I have said many times in this hearing, I would urge 
everybody here, if you don't like those cuts, offer 
alternatives; offer alternatives or give them more money. The 
giving them more money part does not seem likely for a variety 
of different reasons which I won't get into this morning, but 
if we are stuck with that cap number, it is not enough for this 
committee to rail against the cuts that have been proposed in 
this budget. We have to offer alternatives. It is literally a 
zero-sum game. And I think the Department of the Army, the 
Department of Defense have looked long and hard at that, and 
come up with reasonable choices to make that work.
    Now, the final thing I will say about this is what I really 
believe makes those choices reasonable, is as the chairman 
alludes to, the worst the thing that we can do is ask the men 
and women serving in our Army to perform a task that we do not 
equip and train them to do. That is what a hollow force is. No 
matter the size of the force, if they are not equipped and 
trained, they are not ready, and it is a dereliction of our 
duty to prepare them. So, set the size but make sure they are 
trained and equipped to perform the task that we ask them to 
do.
    If we do not accept some of the reasonable cuts that are 
put in place here, if we insist on higher numbers in all of 
these places, that gives us the very real possibility of having 
that hollow force. The force will be bigger, the Guard and 
Reserve will be bigger. There will be certain pet programs that 
are important to people that won't be cut, but where will that 
money be made up? That money will be made up in readiness. That 
money will be made up in less maintenance, less equipment, and 
less training. So we will have a larger force that is not 
prepared to fight, and that is the worst dereliction of duty 
that we can have.
    So I would urge us to, you know, live with the budget we 
have got and make sure that the men and women serving in the 
Army have the training and equipment that they need to perform 
whatever task it is that we decide that they are going to do.
    I do not for a moment think that we absolutely have to just 
totally accept the budget that you are giving us. I am sure 
there are places where other savings can be found. It is the 
duty of this committee to take a look at that and try to find 
those, and I hope that we will, but the committee is not doing 
its duty if we just say don't cut this and don't offer an 
alternative.
    So, I think this hearing this morning is incredibly 
important as we sift through those tough choices and try to 
figure out, are they the correct ones, and if not, in this 
zero-sum game that we are living in, what are the correct cuts 
that need to be made?
    So again, I thank both Secretary McHugh and General 
Odierno, in general, for your fantastic service, but in 
particular, for the extraordinarily difficult set of 
circumstances that you have had to wrestle with in putting 
together this budget.
    I look forward to the testimony and the questions. I yield 
back.
    The Chairman. Thank you.
    Mr. Secretary.

    STATEMENT OF HON. JOHN M. MCHUGH, SECRETARY OF THE ARMY

    Secretary McHugh. Thank you.
    Mr. Chairman, Ranking Member Smith, distinguished members 
of the committee, I deeply appreciate this, now the fifth, 
opportunity I have had to come before this committee as 
Secretary, and as in the past to discuss with you the truly 
incredible work of our soldiers, our civilian leaders of this 
past year, and the current state of America's Army.
    And equally important, the uncertain and perilous times 
that should lie ahead, should the vital requirements in our 
budget request not be approved. I need to be very clear up 
front. The time for action is now. We must have this budget to 
properly restructure, to reduce and revamp our force, and quite 
frankly, we need it to protect your Army as we march on a 
dangerous and unpredictable future.
    This year and next may very well decide the fate of the 
world's greatest combat force, and could have implications for 
both our Nation's as well as the world's security for many 
years to come.
    As this committee knows so full well, the cuts we have 
endured under the Budget Control Act [BCA] and sequestration, 
as have been mentioned already, have damaged significantly our 
readiness, drastically reduced our modernization programs, and 
demanded sharp cuts to our end strength.
    These, coupled with the significant shortfall in the 2013 
OCO [Overseas Contingency Operations] funding caused your Army 
to enter this year with a $3.2 billion hole in readiness alone. 
Moreover, although the bipartisan budget agreement did indeed 
provide some temporary relief, we are still implementing a $7.7 
billion cut to our fiscal year 2014 budget request, and to meet 
our top line requirements, we have had to cut another $12.7 
billion from our 2015 submission.
    In order to protect current operations, our combat power, 
as well as our soldiers and our families, we have been forced 
to make extremely hard choices in this budget; choices that 
impact every component, affect every camp, post, and station, 
and limit nearly every modernization and investment program.
    Trust me, this is not what we wanted. It is not what your 
Army, I think, deserves. But it is what we have had to do to 
preserve America's land power in such an austere fiscal 
environment, as constructed by the dictates approved in law.
    Nevertheless, in spite of turbulent funding and tremendous 
change, this past year has been one of great transition, 
transformation, and triumph for your Army; not just here at 
home, but around the globe as well. The resiliency, agility, 
and determination of our warriors has been nothing short of 
amazing. From intense combat to counterterrorism in retrograde 
to humanitarian relief, disaster assistance, and regional 
engagement, your soldiers and civilians from every component, 
Active, National Guard, and Reserve, have seen unprecedented 
success, saved countless lives, promoted freedom and democracy 
in some 150 nations around the world.
    In Afghanistan, the Army continued to fight insurgents and 
terrorists as we transitioned into a training and support role, 
helping to set conditions for elections in April and an 
appropriate withdrawal in December.
    Simultaneously, we continued one of the largest retrograde 
operations in our Nation's history--returning or removing or 
demilitarizing some 580,000 pieces of equipment in just the 
past 12 months alone. We plan to retrograde over $10.2 billion 
of the Army's $15.5 billion in equipment currently there.
    As we continue to fight in one theater, we also expanded 
our regional alignments, conducting dozens of engagements with 
partners around the world, from the rebalance to the Pacific to 
exercises in Africa, South America, and Europe, our soldiers 
demonstrated their global responsiveness, reassured our allies, 
and deterred would-be aggressors.
    In the Pacific, the Army remained a cornerstone of support 
with some 80,000 Active and Reserve soldiers available to 
conduct operations. We have assigned 1st Corps to PACOM [United 
States Pacific Command] to provide a rapidly deployable joint 
headquarters, maintained a THAAD [Terminal High Altitude Area 
Defense] battery in Guam to provide theater missile defense, 
and conducted 28 large-scale exercises with 13 different 
countries.
    Elsewhere, we conducted over 70 engagements with partners 
in Africa, participated in multilateral exercises with NATO 
[North Atlantic Treaty Organization], and deployed teams from 
the Georgia Army National Guard to serve several Central and 
South American countries.
    We supported stability in the Middle East, with over 4,300 
soldiers participating in Operation Spartan Shield, as well as 
2,200 taking part in 7 exercises, including the deployment of 
key elements of the 1st Armored Division to Jordan.
    Simultaneously, as our forces perform vital missions around 
the world, the Army began a major transformation to reorganize 
our brigade combat teams, accelerate end strength reductions, 
and cut our headquarters staff. All designed to protect 
critical readiness and seek more balance under these budget 
times.
    In June, we announced the elimination of 12 brigade combat 
teams so that we could reorganize and strengthen those that 
remain. In September, we announced a 2-year acceleration of our 
drawdown to reach 490,000 Active, 350,000 Guard, and 202,000 
Army Reserve soldiers by the end of 2015, with the vast 
majority of those cuts being taken from the Active forces.
    In the summer, we conducted a comprehensive review in 
coordination with DOD and directed the reduction of 
headquarters personnel by up to 25 percent across the force. As 
we continue to retrograde, restructure, and reduce, we also 
continue our transition to decisive action training, replacing 
our recent focus on counterinsurgency. Unfortunately, due to 
severe cuts in fiscal year 2013, we were forced to cancel seven 
combat training center rotations and significantly reduce home 
station training.
    Although we ensured deploying units were fully trained, 
sequestration cuts directly impacted the training, readiness, 
and leader development of more than two divisions worth of 
soldiers.
    Moreover, in fiscal year 2014, even under the temporary 
relief provided by the BBA [Balanced Budget Act], the Army will 
not be able to train a sufficient number of brigades and meet 
unforeseen strategic requirements, and currently can provide 
only a limited number of BCTs [brigade combat teams] trained 
for decisive action.
    Although readiness levels will increase through this year 
and in 2015, the looming sequestration return in fiscal year 
2016 will quickly erode these gains.
    Finally, I would be remiss if I did not mention the 
extraordinary burden our civilian employees have faced over the 
past year with pay freezes and furloughs. Although our fiscal 
2014 appropriation bought some much needed relief, I fear we 
have yet to see the true impacts of these cuts on their morale 
and on their retention.
    Looking back, it has been a tumultuous year, but it is 
still clear now more than ever we must have predictable long-
term funding that supports deliberate planning and responsible 
actions, and for that, we need your help, we need your 
leadership.
    Our fiscal year 2015 budget request reflects the 
challenging fiscal times in which we live by making the hard 
strategic choices now. It contains difficult decisions to 
further reduce end strength, realign our aviation assets, 
prioritize near-term readiness, and protect soldier and family 
programs.
    We do much of this by taking calculated risk in 
modernization and facilities programs. There is no question, 
this budget is lean, it could be described as stark and it is 
critical to meet the needs of our Nation and its soldiers.
    In this request, we will begin further reductions to our 
end strength, reaching 450,000 Active, 335,000 Guard, 195,000 
Reserve soldiers by the end of fiscal 2017. It is important to 
know, we are also adjusting our force mix in favor of the 
Reserve Component. This is the maximum end strength we can 
afford to protect readiness and the minimum we need to execute 
the 2012 Defense Strategic Guidance.
    Nevertheless, this is clearly not without risk. Members, we 
must restructure our aviation portfolio. We recognize this is 
controversial, but in our view, there is simply no choice. The 
money is gone, and we must balance these vital assets in a way 
that maximizes our readiness and minimizes costs across all 
components. This initiative will generate savings by reducing 
our total number of platforms and--from seven to four. We will 
divest the older, less capable Kiowa and TH-67 trainers in 
favor of Apaches and Lakotas.
    In support, the Guard will transfer their low-density, 
high-demand Apache attack helicopters to the Active Army, and 
in return will receive 100 of our most modern Black Hawks, 
which are ideal for their dual combat and State support role. 
We will transfer all Active Army Lakota to training mission at 
Fort Rutger, and buy an additional 100 for that fleet. And at 
current funding levels, the Guard will be able to retain all of 
its Lakotas.
    This is the right thing to do.
    It allows us to better sustain and modernize more capable 
fleet across all components and significantly reduce its 
sustainment costs. Once again, as in end strength, the vast 
majority of cuts from aviation, a total of 86 percent, come 
from the Active Army. Overall, the Guard's fleet was declined 
by just 8 percent, while the Active force declines by some 23 
percent.
    At its core, our Army is its people. We are committed to 
protecting effective soldier, civilian, and family programs, 
and where appropriate, adding resources, and in fact, we 
increased funding by nearly 46 percent across a myriad of 
programs associated with Ready and Resilient Campaign.
    From a preservation and prevention of all of our soldier 
concerns, ending sexual assault and sexual harassment, to 
suicide prevention, to transition assistance and comprehensive 
soldier and family fitness, we are determined to meet the needs 
of our warriors, employees, and their families.
    We have a sacred covenant with all who serve and all who 
support them, and will do everything within our power not to 
break that.
    To protect readiness and support our force structure 
reductions we take prudent risk in our research, development 
and acquisition of facilities accounts. We have been forced to 
make significant changes to key programs. For example, we will 
conclude the Ground Combat Vehicle program after the technology 
development phase as the program is no longer affordable under 
budget constraints, and instead, we will focus on modernizing 
and sustaining legacy systems such as Bradley and Stryker 
through incremental upgrades.
    Regarding our facilities, our budget is just 49 percent of 
our fiscal year 2014 MILCON [military construction] 
appropriation. We are deferring some 20 percent of projects 
across all components with again, the majority of those delays 
coming in the Active Army.
    Let me take a moment to mention BRAC [Base Closure and 
Realignment]. And I know it is not popular. As a member, I had 
a base in my district close due to BRAC. It is hard. I know 
that. But it was necessary then, and it is even more necessary 
now. But it is simply, we can't afford to pay for the 
maintenance and upkeep of unused or unnecessary facilities. It 
wastes money we just don't have.
    So that is some of the issues that we have before us, my 
former colleagues. I want to close by again stating how much 
all of us appreciate all you have done, the relief provided 
under the Balanced Budget Act for 2014, and 2015, but if 
sequestration--as is the law--returns in 2016 our gains will 
erode and another round of indiscriminate cuts will gut our 
force to the point that we will be unable to meet the strategic 
guidance.
    As I opened with, we deeply--perhaps more so than in any 
other recent time--need your leadership and need your help. 
This is the time for protection and predictability, not 
politics. I have been associated with this committee for the 
better part of 20 years. It has continuously without 
interruption been an honor, as it always is, to be with you.
    And I would be remiss, Mr. Chairman, as a classmate, if I 
failed to mention in this--at least for the United States 
Army--your final posture hearing, how much I have enjoyed your 
wise guidance, your leadership, and some 21 years of 
friendship, and I wish you all the best, my friend.
    Thank you, and I yield back.
    [The joint prepared statement of Secretary McHugh and 
General Odierno can be found in the Appendix on page 55.]
    The Chairman. Thank you very much.
    General.

STATEMENT OF GEN RAYMOND T. ODIERNO, USA, CHIEF OF STAFF, U.S. 
                              ARMY

    General Odierno. Thank you Chairman McKeon, Ranking Member 
Smith, other distinguished members of the committee.
    I want to start out where the Secretary left off. I want to 
thank you, Chairman, for all that you have done. For all your 
22 years here serving and what you have done for the Army and 
our soldiers. You have been a steadfast leader here in this 
committee and we appreciate everything that you have done for 
us. And we continue to--we know we will continue to work with 
you for several more months and we look forward to that.
    Although resources continue to decline, the reality is that 
the demand for Army forces continues to increase. More than 
70,000 U.S. Army soldiers are deployed today on contingency 
operations, and about 85,000 soldiers are forward stationed in 
nearly 150 countries, including nearly 20,000 on the Korean 
peninsula.
    As we can consider the future roles and missions of our 
Army, it is imperative that we consider the world as it exists, 
not as one we wish it to be. The recent headlines alone--
Russia's annexation of Crimea, the intractable Syrian civil 
war, missile launches by North Korea, just to name a few, 
remind us of the complexity and uncertainty inherent in the 
international security environment. It demands that we make 
prudent decisions about the future capability and capacity that 
we need within our Army.
    As part of the joint force, the Army deters potential 
adversaries by being capable of appropriate and rapid response 
anywhere in the world, and across the entire range of military 
operations from humanitarian assistance and stability 
operations to general war. Last year, I testified that we can 
implement a 2012 Defense Strategic Guidance at moderate risk 
with an end strength of 490,000 in the Active Army; 350,000 in 
the National Guard; and 202,000 in the U.S. Army Reserve. I 
stand by that assessment.
    We will achieve those end strength targets by the end of 
fiscal 2015; however, the law of the land is sequestration. 
Therefore, in order to attain the proper balance between end 
strength, readiness, and modernization by the end of 
sequestration we will have to dramatically slash end strength 
again beginning in fiscal 2016. This is in no way by choice. We 
will be required to further reduce the Active Army end strength 
to 420,000; reduce the National Guard to 315,000; the U.S. Army 
Reserve to 185,000.
    The size of our Army at this level of funding will not 
allow us to execute the Defense Strategic Guidance, and in my 
opinion, puts in doubt our ability to execute even one 
prolonged, multi-phase major contingency operation.
    I also have deep concerns that, if the Army goes to the end 
strength levels required by sequestration, we will not have the 
appropriate capacity to meet operational commitments and 
simultaneously train to sustain appropriate readiness levels 
across the total Army.
    The President's budget submission supports end strength 
levels at 440,000 to 450,000 in the Active Army; 335,000 in the 
Army National Guard; and 195,000 in the U.S. Army Reserve. I 
believe this should be the absolute floor for end strength 
reductions. At this level, we can meet the Defense Strategic 
Guidance but as we continue to lose end strength, our 
flexibility deteriorates.
    My experience tells me that our assumptions on the duration 
of conflict and requirement about length and size, especially 
if phase four operations, are optimistic, and if these 
assumptions are wrong our risk grows significantly.
    For the next 3 to 4 years, we are reducing end strength as 
quickly as possible while still meeting our operational 
commitments. As we continue to draw down and restructure into a 
smaller force, the Army will continue to have degraded 
readiness and extensive modernization program shortfalls. This 
will cause us to implement a tiered readiness as a bridging 
strategy.
    Also, our research, development, acquisition funding, which 
has declined 39 percent since the fiscal year 2012 budget 
planning cycle, will continue to suffer. At the end of fiscal 
year 2019, under sequestration, we will stabilize our end 
strength and force structure. The Army will begin to establish 
the appropriate balance between end strength, readiness, and 
modernization, albeit for a much smaller army.
    From fiscal year 2020 to fiscal year 2023, we begin 
achieving our readiness goals and reinvesting in modernization 
programs to upgrade our aging fleets. Under the President's 
budget, this will happen 3 to 5 years earlier, in fiscal year 
2018, at larger total force levels.
    In order to meet the reductions imposed by sequestration 
and achieve the right balance, we have worked for the past 2 
years on a total force policy that ensures the proper balance 
for the Active, Guard, and Reserve components.
    In developing our plan, we looked to the Secretary of 
Defense's guidance that we not retain structure at the expense 
of readiness. Additionally, the Secretary of the Army and I 
directed that cuts should come disproportionately from the 
Active force before reducing the Guard and Reserve.
    Our total force policy was informed by the lessons learned 
during the last 13 years of war. We considered operational 
commitments, future requirements, costs, and necessary 
readiness levels. The result is a plan that recognizes the 
unique attributes, responsibilities, and complementary nature 
of these three components, while ensuring our Guard and 
Reserves are maintained as an operational, and not a strategic, 
reserve.
    Budget cuts, to include full sequestration, result in a 
reduction of 150,000 soldiers, 687 aircraft, and up to 46 
percent of the brigade combat teams reduction from the Active 
Army. The National Guard would be reduced by 43,000 soldiers, 
111 aircraft, and up to 22 percent of its brigade combat teams. 
And the U.S. Army Reserve would reduce by 20,000 soldiers.
    The end strength cuts to the Active Army represent 70 
percent of the total end strength reductions, compared with 20 
percent from the National Guard and 10 percent from the U.S. 
Army Reserve. This results in that the Guard and Reserves will 
now comprise 54 percent of the total Army end strength, while 
the Active Component will comprise 46 percent. The Army will be 
the only service in which the Reserve Component outnumbers the 
Active Component.
    Under sequestration, we cannot afford our current aviation 
structure. The budget does not allow us to sustain 
modernization programs, keep current structure levels, and 
provide trained and ready aviation crews in units across all 
three components. Therefore, we have developed an innovative 
concept to restructure our aviation fleet that will properly 
address all three of these issues.
    Overall, we believe this plan will generate a total savings 
of $12.7 billion over the POM [program objective memorandum]. 
Of the 798 total aircraft reduced under this plan, 687 of these 
aircraft comes out of the Active Component, or 86 percent, and 
111 aircraft, or 14 percent, from the National Guard. As with 
end strength, we are disproportionately taking cuts from the 
Active Component over the Guard and Reserves.
    Also under this plan, the National Guard will gain 111 U-
860s. Additionally, the National Guard will maintain their 
current fleet of 212 LUH-72s. The Army National Guard will 
transfer low-density, high-demand AH-64 Apache helicopters to 
the Active Army, where they will be teamed with unmanned 
systems for armed reconnaissance role, as well as their 
traditional TAC [theater aviation command] role.
    This plan allows us to eliminate obsolete airframes, while 
improving the modernization of our remaining fleet. It will 
also ensure that we are restructured to sustain an adequate 
level of pilot proficiency across the entire force. This will 
result in an Active-Reserve Component aviation force mix with 
better and more capable formations, which are able to respond 
to contingencies at home and abroad.
    Let me be very clear. Whether it be end strength, 
modernization reductions, restructuring of the Army, these are 
not necessarily cuts we want to take. However, these are cuts 
we must take based on sequestration. I believe our 
recommendation delivers the best total Army for the budget 
allocated.
    The Secretary and I understand that the American people 
expect our Army to consistently demonstrate a commitment to our 
core values and promote ethical leadership. We are aggressively 
and comprehensively tackling this issue across the board 
individually, organizationally, and through systematic reviews.
    We have initiated 360-degree assessments on all officers, 
especially commanders. We have implemented a new officer 
evaluation report which strengthens accountability. For our 
general officers, we conduct periodic surveys, organize 18 
annual senior leader seminars, and developed a specific ethics 
focus as part of our Army senior leader development program.
    We continue to make progress on combating sexual assault 
and harassment, particularly on reporting and investigating 
these incidents. It remains our top priority. Over the past 
year, the Army has established more stringent screening 
criteria and background checks for those serving in positions 
of trust, expanded the special victim capability program, and 
implemented new procedures to enhance pre-trial investigations. 
Our prosecution and conviction rates continue to increase. But 
we know that much work remains. We appreciate the continued 
focus by Members of Congress on this issue. We take it very, 
very seriously.
    We would also appreciate help from members of this 
committee with two issues that directly impact our ability to 
maintain the right balance for our Army. First, the Base 
Realignment and Closure process is a proven, fair, cost-
effective means to address excess installation capacity in our 
United States Armed Forces. With a reduction of over 200,000 
men and women from our Army, we must reduce excess 
infrastructure. We need BRAC to do this. If not, we will have 
to pay for the sustainment of unnecessary infrastructure 
throughout our Army.
    Second, we are also extremely grateful for the high-quality 
care and compensation our Nation has provided to our soldiers. 
We have endorsed proposals that we believe continues to 
recognize the incredible service of our soldiers, while helping 
us to better balance future investments in readiness, 
modernization, and compensation. We all must keep in mind that 
it is not a matter of if but when we will deploy our ground 
forces to defend this great nation of ours. We have done it 
every decade since World War II.
    It is incumbent on all of us to ensure we have the capacity 
and capabilities to ensure our soldiers are highly trained, 
equipped, and organized. If we do not, they will bear the heavy 
burden of our miscalculations.
    I am incredibly proud to wear this uniform representing the 
Active Component, the National Guard, and the U.S. Army 
Reserve. They have all sacrificed incredibly over the last 12 
or 13 years and will continue to incredibly sacrifice into the 
future. It is incumbent on us to make sure we provide them the 
tools necessary for them to be successful.
    Thank you, Mr. Chairman, and thank you to the entire 
committee for allowing me to testify here today. I look forward 
to your questions.
    [The joint prepared statement of General Odierno and 
Secretary McHugh can be found in the Appendix on page 55.]
    The Chairman. Thank you very much, both of you, for your 
statements. As I said in my opening statement, any suggestion 
that this budget supports an Active Duty Army of 450,000 
soldiers is a smoke screen because it suggests that, it assumes 
that sequestration gets resolved. The fact of the matter is 
that the Army, as you have laid out, is heading down a path of 
420,000 Active Duty soldiers or less.
    General Odierno, my question is twofold. First, based on 
this budget and an Active Duty end strength of 450,000 directed 
by the OSD [Office of the Secretary of Defense], do you still 
believe that the Army will assume fairly high risk in meeting 
the Defense Strategic Guidance? And second, if it is a fairly 
high risk at the 450,000 level, what level of risk do you 
assume at the 420,000 level?
    General Odierno. Mr. Chairman, as I just stated, at the 
440,000 to 450,000 level, I believe it is significant risks to 
meet the Defense Strategic Guidance, but we can meet it. And I 
think that is based on the assumptions that we made. And I 
think the assumptions are optimistic. I believe that the 
assumptions of length of warfare; the assumptions on the 
contribution of our allies; the assumptions on the casualties 
and others are somewhat optimistic. And I believe that 
increases the risk, based on my experience and what we have 
experienced in the past that I think the risk is significant. 
Although I do believe we can meet the Defense Strategic 
Guidance.
    At 420,000, and it is not just the Active. It is the 
reduction in the National Guard and the U.S. Army Reserve as 
well under sequestration that will make it very difficult. As 
we reduce capacity, we lose flexibility. And therefore, when we 
lose the flexibility that means our assumptions must be 
accurate.
    And over the years, my experience tells us our assumptions 
are not always very accurate. And so I am very concerned that 
at 420,000 we cannot meet the strategic--Defense Strategic 
Guidance. I doubt whether we could even execute one prolonged, 
multi-phase operation that is extended over a period of time.
    And so I have great, great concern. And what will happen is 
this again falls on the shoulders of our soldiers when this 
happens, and that is my concern.
    And as we continue to move forward, the risk increases 
because as our dependence on OCO is reduced, it also puts 
additional pressure on the base budget. And there will be some 
things that are currently in our OCO budget that have to be 
translated over. The base budget will continue to increase the 
risk as we have to execute full sequestration.
    The Chairman. When Secretary Hagel and General Dempsey came 
when we started this process, I think the press picked up on 
the idea that we were taking the troops down to--the Army down 
to 440,000. And the comment was made, ``That is the lowest 
level since the start of World War II.'' I went back, and I 
think the Army at the start of World War II was around 280,000. 
A year later, after the start with the draft and everybody 
responding to Pearl Harbor and the things that happened, the 
Army went up over 1 million overnight.
    Well, we know, and I just finished reading a book about the 
Northern Africa campaign and how many lives were lost and how 
they were just--we were sending men in just like fodder. They 
had inadequate training, inadequate equipment, inadequate 
leadership. And that is something that none of us wants to ever 
see again. But shortly after that, Korea hit. We did the same 
thing.
    And I think all of us here on this committee understand 
what we have been talking about and how these cuts are so 
drastic. But I was at an event last week and there was another 
Member of Congress there. And I was talking about some of these 
cuts. He is not on this committee. And afterwards, he came up 
to me and said he did not realize that we had cut that much.
    And I think that is--you know, when we come to Congress, we 
get involved in the committees we get assigned to and we don't 
get as involved in other committees and know what is happening 
in those committees, and still, we are here, and we vote on 
these issues.
    And we are closer than people I know in my district don't 
have an understanding of how severe these cuts are. And when 
you are talking about these risks, how severe they are. And yet 
they see the news, they see Putin going into Crimea, the 
Russians talking about you know, on the commentators are 
wondering, are they going to go further, are they going to go 
into Ukraine? A few years ago, they went into Georgia. They are 
still there. And what can we do about it?
    You know, basically, we are hunkering down. I think 
realistically, putting ourselves in a very serious, precarious 
position, moving forward.
    And I know we passed the budget, and then you have to deal 
with it as best you can. And if we don't face up to 
sequestration and what that means, there are probably people 
that think that with the budget that we passed in December, we 
have fixed sequestration. We didn't fix it. We put it off for a 
couple of years, and we got $20 billion back this year instead 
of $50 billion.
    But it is something that we really need to face up to, and 
I appreciate your candidness, I appreciate the efforts that you 
are making to do the best you can with what you have. But as 
Members of Congress, we are going to have to face up to the 
real realities that are facing us over the next 8 years, so.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I certainly agree that we need to make sure we have a 
military that is ready to perform the tasks we ask them to do. 
I would question, you know, even if we had a million-man Army, 
perfectly trained, whether or not too many people on this 
committee would consider it wise for us to use that Army to go 
to--you know, fight a war with Russia over Crimea.
    The issues there are very, very complicated, and simply 
sending in the military is not always the solution to our 
diplomatic problems. But I will completely agree that we need 
to have that military ready to perform whatever tasks it is we 
think they should perform.
    I want to ask about base closing, first of all. Do you have 
an estimate at this point, as you draw down, what excess 
basing, what percentage of excess basing capacity you have at 
this point?
    Secretary McHugh. Yes. We have done a cursory analysis. We 
were under a moratorium for a period of time, according to the 
NDAA [National Defense Authorization Act] that prevented us 
analyzing, but the figures we show right now is in the 
continental United States, approximately 15 to 20 percent in 
excess.
    Mr. Smith. And let me just comment, and I remember the 
debate, we had a vote in committee on that amendment, which I 
urged us to strip that out of the NDAA. I sincerely hope this 
committee doesn't do anything like that again, where we tell 
you to not even think about planning for what are obvious 
contingencies. Whatever concerns we have about base closing, I 
mean, the budget reality we have means we need to give you guys 
flexibility and not box you in like that. So I hope we can 
avoid that this year.
    Now, there was an estimate given by Under Secretary Hale 
over in the Senate that it would cost about $6 billion to 
implement the BRAC and then, you know, would be a $2 billion 
per year savings. A couple questions about that.
    First of all, how long would that take? How long would that 
first $6 billion be going out before we started realizing the 
savings.
    And then second, can you, you know, let the committee know 
how different this BRAC would be from 2005? Because 2005 was 
really more about realignment than it was about reducing the 
size of the structure, so frankly, anybody who says, ``Oh gosh, 
2005 wound up costing more money, therefore, we shouldn't do 
BRAC.'' I mean, that is, you know to call it apples and oranges 
is an underestimation.
    But could you elaborate on those two points?
    Secretary McHugh. If I could start, and start with your 
second point. There are really two types of BRAC embedded in 
2005. As you noted, Mr. Smith, the actual primary one for the 
Army was one of moving and consolidating forces, bringing 
rationality to our command structure, that was not exactly 
directed primarily at the budget. It did, over time, produce 
some savings, both through efficiencies and rational 
alignments, but it was really intended for us to optimize our 
structure and make sure we were located in the right places.
    There was, of course, the second part to eliminate excess 
capacity. That started a payback more immediately. The $6 
billion figure that Secretary Hale used of course, is a 
Department-wide figure. The Army's figure is somewhat less.
    We would certainly target a net payback of at least a 
billion dollars a year. We generally say a 5-year payback. That 
really depends on particularly environmental considerations 
that sometimes can stretch out a lot, quite a while. But we 
would hope for a relatively quick payback. Certainly more 
quickly than occurred in 2005.
    Mr. Smith. Okay. General.
    General Odierno. If I just add--in the BRAC in 2005, we did 
some significant reorganization under that BRAC, which makes 
that a bit different than this one.
    For example, the combination of the armor and the infantry 
school in Fort Benning, and others like that, all the logistics 
out to Fort Lee.
    So those were major reorganization that was supported by 
BRAC that made it a little bit more expensive, but now is 
generating savings for us. The next BRAC wouldn't be quite that 
drastic. It would really be targeted at just eliminating the 
excess infrastructure that we have and so I think you would 
find it to be not as expensive as it was in 2005 and probably a 
bit better return. Although, we are now starting to get big 
returns on the investments we made in 2005 with the 
consolidation.
    Mr. Smith. Absolutely. And the final question is: the bulk 
of the savings that you find in the Army budget in order to 
meet the cuts that we have described, whether it is just, you 
know, what fiscal year 2014 and 2015 give you or what 
sequestration gives you, are in people and aircraft, basically. 
I mean that is like--I will throw a figure, that is like 95 
percent of your savings. Is that accurate? A little bit less 
than that? Is that----
    General Odierno. I would say it is a bit less than that, 
but it is the preponderance of our savings. I would say up to 
70 to 75 percent of the total savings is on personnel 
reductions and aircraft reductions, because that is our most 
expensive operational component to buy and sustain over time.
    Mr. Smith. And if you were to be restricted in how you 
could do that, and I guess the biggest area of complaint is how 
this impacts the Guard, both in terms of their aircraft and in 
terms of their personnel, where else would you find the 
savings?
    Let's say that we came along and said, ``Gosh, no, you 
can't do that.'' And just picking a figure, it is $1 billion. 
You know, I think the total aircraft savings over 5 years is 
$12 billion for the movements you are making. I don't know off 
the top of my head what the personnel savings are, but they are 
significant, I am sure. Let's just say this committee said 
``Nope, you can't do that,'' and it was a billion dollars. 
Where would you find a billion dollars?
    [Laughter.]
    Mr. Smith. Feel free to just go ahead and check in the 
pockets of your coat.
    Secretary McHugh. I was just about to look under the table 
here. The reality is there are very few places we can go, and 
they are the very places that we would most prefer not to go. 
That is further end strength, further modernization program 
implications, and decreased readiness, which is already 
severely constrained. I would note just taking the aircraft, 
you have noted correctly, it is about $13 billion costs across 
the program, but just the cancellation of the cockpit sensor 
upgrade program for the Kiowa, which has already been done, 
would cost us $1.5 billion. So, that money, as I mentioned in 
my opening comments, as is all the money associated with these 
compo realignments, is gone.
    And they are the same few accounts remaining that we have 
already hit hard since the beginning in 2013.
    Mr. Smith. General.
    General Odierno. If I could, the cost avoidance on the 
aviation restructure is almost $12 billion. That is cost 
avoidance, and then that saves sustainment costs of $1.1 
billion per year.
    Mr. Smith. Okay.
    General Odierno. So it is quite significant. One billion 
dollars is, you know, three Army BCTs. So, if you have to 
reduce significant more Army BCTs, it is equivalent to two 
THAAD batteries. It is equivalent to 2,000 or 1,500 JLTVs 
[Joint Light Tactical Vehicles], $1 billion. So, it would 
have--we would have to significantly reduce in many other areas 
if we are not able to execute this strategy.
    Mr. Smith. In a nutshell, it is training, equipment, and 
readiness. So basically, you know, you would have a less ready, 
less equipped, less trained force, which would lead to 
precisely the vulnerabilities that the chairman talked about, 
that we had prior to World War II and prior to the Korean War.
    General Odierno. That is correct.
    Mr. Smith. Thank you very much. I yield back.
    General Odierno. Thank you.
    The Chairman. Thank you. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Secretary, General, I want to echo what the chairman 
said. We are both in all very pleased and fortunate to have 
both of you in the positions that you are in. We thank you for 
coming here and sharing your wisdom with us. We learn a great 
deal from you. We also learn a great deal from the members on 
this committee and listening to them.
    And earlier, the ranking member said something that we have 
heard a lot. He said that the President, Congress, came up with 
a budget, and that basically, you built a strategy around the 
budget. My question for you today: Is that an accurate 
statement?
    Secretary McHugh. I wouldn't--I would never question a 
Member of Congress, particularly a member of the Armed Services 
Committee----
    Mr. Smith. If I may a point a personal privilege here, I 
believe what I said was that you built a strategy that 
reflected both the needs and the likely budget. I did not say--
--
    Mr. Forbes. I am using my time, and obviously the ranking 
member has the time he wants to speak.
    Mr. Smith. Yes, and you have the time not to misquote me.
    Mr. Forbes. And well, we can look at the transcript, but I 
think it said very clearly--so it would be fair to say that you 
did not build your strategy around the budget?
    Secretary McHugh. I think it is fair to say that this was a 
strategy first development and program, yes.
    Mr. Forbes. So, the strategy was the first priority, not 
the budget.
    Secretary McHugh. Correct.
    Mr. Forbes. Then why did, in the President's budget, 
Chairman Dempsey testified before this committee based on the 
2012 Defense Strategic Guidance and the budget that had come 
over based on that, that if you cut one dime out of that, if we 
reduce that at all, we could not meet that strategic guidance?
    Where did you reach this number that came over? Because it 
is not the current law, it is not what was in the current law, 
and it is not the dollars that were stated that needed to go to 
the 2012 strategic guidance. Where did you reach this in-
between dollar figure, how did you come up with that?
    Secretary McHugh. Uh, Chief?
    General Odierno. So, you outlined a 2012 Defense Strategic 
Guidance that is the strategy we are developing. I can't speak 
for Chairman Dempsey, but I will speak for us.
    And on this budget that the President has submitted, I 
believe that is the floor, mentioned earlier, I think that is 
the floor of what we need in order for us to execute this 
strategy.
    Once we go below that, we can no longer execute the 
strategy. We are going to have to develop, either change the 
current--amend the current strategy or develop a new strategy, 
especially as we go down to sequestration.
    But under the President's budget, I believe we can execute 
Defense Strategic Guidance with high--with a bit more risk than 
we could originally.
    Mr. Forbes. But, General, it would be fair to say that 
number is less than what we were saying we needed to meet that 
strategic guidance last year----
    General Odierno. As I said earlier, when I first testified 
in front of you, I told you for the Army an end strength was 
490,350, and that would allow us to do it at moderate risk.
    We are now below that, and so I think we can still execute 
it, but the risk is increasing.
    Mr. Forbes. The other question I have for you, General, 
last year, the Army QDR office sponsored a report that the RAND 
Corporation conducted, entitled, ``Evolving [Employing] Land-
Based Anti-Ship Missiles in the Western Pacific,'' and it 
concluded that land-based anti-ship missiles ``are readily 
available on the world's arms markets, inexpensive, and able to 
provide significant additional capabilities to U.S. forces. . . 
. These capabilities would also significantly complicate the 
PLA's [People's Liberation Army's] C2, intelligence, and 
targeting requirements and would raise the risks and cost of a 
conflict for China.''
    Having such capabilities in an inventory ``would further 
U.S. efforts to provide security cooperation assistance to 
partner nations, could help deter conflict, and could 
contribute to victory in a future conflict by increasing 
flexibility and expanding the set of tools available to U.S. 
commanders to implement plans.''
    My question is, do you agree with that conclusion? And do 
you see any role for the Army to be able to use these type 
missiles in the future?
    General Odierno. I believe the report is worth us taking a 
hard look at it. And that we have to--there is a role, I think, 
for us, in our ballistic missile capability to potentially do 
this.
    Now, the problem we have now is our ballistic missile 
capability is overstretched now, as it conducts missions around 
the world. But for us, it is important for us to study this, 
take a look at it, and determine, as we move to the future, 
that this is--is this a potential strategy we want to invest 
in?
    Mr. Forbes. And final thing is, has anyone at the Pentagon 
developed--because, obviously, the devil is always in the 
details--the BRAC criteria yet that would be utilized if we had 
a BRAC?
    General Odierno. I am not aware of it. We have done very 
little on BRAC because----
    Mr. Forbes. Wouldn't it be fair to say that if we don't 
even know what the criteria would be, it would be almost 
impossible to determine what, if any, savings we would have?
    General Odierno. Well, I think the issue is we have not 
been able to do that. What we do know we have is we have excess 
capacity and excess infrastructure, so.
    Mr. Forbes. Okay.
    General Odierno. And that is problematic.
    Mr. Forbes. Thank you, General.
    Thank you, Mr. Secretary.
    And, Mr. Chairman, I yield back.
    The Chairman. Thank you. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And, gentlemen, it is nice to see you both again.
    We have worked together on many issues, as you know,
    John, we miss you over here in the Congress. But I know you 
are doing a great job over there.
    Secretary McHugh. I wish I were back on the committee right 
at this moment.
    [Laughter.]
    Ms. Sanchez. Yes, right.
    So, my issue today goes to the morale and the issues that 
are affecting our troops, because in particular in the Army, as 
you know, the real resources are our men and women who serve 
every day, who serve in the Reserves, who serve at the National 
Guard's level.
    And so, I am a little concerned about the climate, the 
culture climate and what is going on within the Army. And you 
know, we have worked on a lot of these issues together for a 
long time, General and Mr. Secretary, but when I see things 
like the situation with the unnamed brigadier general who is 
retiring with his current rank, despite his various acts of 
sexual misconduct, and I am worried about what that is doing 
from the pressure from the outside to the military structure, 
and I worry about what happens with the military structure, of 
a, you know, son, who is committed to the U.S. Army. And I 
worry about due process, from both directions, on sexual 
misconduct, for example.
    And I am also worried, because I can't think of anything 
sadder when I look at our military forces than this whole issue 
of mental illness and the suicide rate that we are seeing.
    So I guess I wanted to ask you about what you are seeing, 
what you are doing, that would give us some confidence that we 
are going to be able to address what could be low morale, 
because of some of these cuts going on, what could happen 
because of--you know, what is going on because of these outside 
pressures and decidedly important, and what we are doing about 
our young men and women and this high suicide rate that we see 
going on within our military?
    Secretary McHugh. Well, I think you have painted with a 
very accurate brush with respect to the various and myriad 
challenges we face. And it takes on many forms, but clearly the 
impact on morale, the fact that we are going to continue to ask 
America's sons and daughters to come and serve, to ask 
America's parents to send those sons and daughters. And we have 
got to ensure that we retain the competence and the trust of 
both those who are serving today and who continue to serve. And 
as we look at the expanse of issues, from suicide to alcohol 
and drug abuse, et cetera, et cetera, we are trying to do 
everything we can to put into place the kinds of rules and 
regulations that will maintain good order and discipline, but, 
equally important, to provide the level and type of care that 
is necessary.
    We recently established a Ready and Resilient Campaign that 
is an umbrella structure for all of our initiatives focused on 
mental health, focused on alcohol abuse and those kinds of 
challenges, some 62 programs, and trying to ensure that we are 
coordinating those in the most effective way, that we are 
messaging to soldiers in the right way.
    And we are trying to get on, as they say in the military, 
the left side of the bank, before the problems actually 
manifest themselves. Because the longer they go unaddressed, 
the harder they become to be cured.
    Just yesterday, the Secretary of Defense held a half-day 
session with all the service chiefs and secretaries, all the 
combatant commanders, all the top officials from the Office of 
Secretary of Defense on ethics, on the responsibility of senior 
leaders.
    We had several national experts come in and talk to us 
about their experiences, what they believe needs to be done.
    We need to send the right messages, particularly to junior 
soldiers, who do look at us and watch how we treat senior 
leaders who are brought before the authorities for various 
charges and such.
    So we are working as hard as we can. This is one area, as I 
mentioned in my opening comments, particularly with respect to 
family care, that we are going to do everything we can to keep 
our commitment. And in some areas, we have actually increased 
funding in spite of the pretty dramatic decreases that many 
other Army programs have incurred.
    The Chairman. Thank you.
    Mr. Wilson.
    General Odierno. Mr. Chairman, could I just make a quick 
comment on that, if you don't mind?
    The Chairman. Okay.
    General Odierno. Your question is a really important one. I 
am spending a majority--my Sergeant Major of the Army and I are 
spending a majority of our time on this very specific issue 
that you are talking about.
    And it is about education, it is about discussion, it is 
about understanding accountability, it is about enforcing 
standards, it is about developing an environment that allows 
our soldiers to continue to grow.
    And there is a lot of angst for a number of reasons, 
whether it be jobs going away, whether it be, you know, 13 
years of combat or 12 years of combat operations.
    You know, we are spending a lot of time. We are having lots 
of meetings with our commanders, our general officer 
commanders, our battalion and brigade commanders. The sergeant 
major is meeting with the senior noncommissioned officers. We 
are traveling around the Army.
    And then, there are specific things we are doing. We have 
increased behavioral health capabilities. We are increasing our 
outreach to the Guard and Reserve with behavioral health.
    We are working this very hard. It is something that we 
can't stop on, and it is something we have to stay focused on. 
You are absolutely right.
    And it is important for us. And we are focused on this 
issue.
    I do appreciate you asking that question. We have to work 
together on this.
    Ms. Sanchez. Thank you.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Secretary McHugh, General Odierno, thank you for your 
service. My appreciation of your competence is firsthand. I 
have four sons who have served under your leadership in Iraq 
and Egypt and Afghanistan.
    Last year, my wife and I, Roxanne, were reassured by your 
capabilities as our son, Hunter Wilson, served for a year in 
Afghanistan, South Carolina National Guard.
    I am very concerned about the shifting of spending from 
national defense to other programs at a time of dangerous 
worldwide threats. As verified by the American Enterprise 
Institute, Al Qaeda is expanding safe havens across North 
Africa, the Middle East, and Central Asia, to attack American 
families from safe havens.
    Additionally, sadly, Russia is violating international law 
by annexing sovereign territory of the Republic of Georgia and 
Ukraine.
    We should remember that the despots who have seized the 
great country of Iran are promoting, clearly, their goals, 
signs in English that state ``Death to America. Death to 
Israel.''
    And just 3 weeks ago, there was a ship which had originated 
in Iran with long-range rockets from Syria, which were being 
sent to Hamas terrorists in Gaza for, obviously, an 
extraordinary attack on Israel.
    With this in mind, your leadership is more important than 
ever.
    General Odierno, the congressional defense committees 
directed the Army to explore accelerating the Armored Multi-
Purpose Vehicle, AMPV, in each of the last two defense 
authorizations bill.
    Now that the Ground Combat Vehicle, GCV, has been 
terminated officially, can the Army brief the defense 
committees on its plan to accelerate the AMPV program? And 
further, is AMPV now considered your number one combat vehicle 
program?
    Secretary McHugh. If I could respond, Mr. Wilson----
    Mr. Wilson. Yes.
    Secretary McHugh [continuing]. And then the chief can 
certainly add. The AMPV is amongst our five strategic 
requirements. We are very focused on that. As you may be aware 
at the moment, we have an agency protest, which means that one 
of the competitive bidders has filed a protest with us that we 
did not conduct an open competition and that in essence we kind 
of wrote the requirements in a way that would favor a 
particular manufacturer.
    We need to work through that before we can resume, but AMPV 
to replace the M-1 and M-113s are absolutely vital to us. And 
we intend to, like the Stryker, like the Bradley and other 
platforms, continue to fund those and support them.
    General Odierno. I would just add is that it is an 
incredibly important vehicle to us. We are long overdue in 
replacing the 113. It is critical to our strategy moving 
forward. And so it is--that is why we funded it the way we have 
in the budget because of the importance of that vehicle to the 
future of the Army.
    Mr. Wilson. And thank both of you for answering that 
question, because I know you want the best for our troops. And 
you have reassured me.
    General, do you have concerns about the proposed TRICARE 
changes? Specifically, are you concerned how the changes impose 
costs on Active Duty soldiers and their families?
    General Odierno. So, I support the TRICARE change. I think 
it is important that we go to one system. I think that that 
will save us money and still provide the capability and 
resources to our soldiers to do this.
    I believe under the plan, it requires some personal 
behavior modification by our soldiers, but it still allows them 
to get the best medical care at the lowest costs. Compensation 
as a whole, Congressman, is a very difficult issue because 
obviously you and us, I want to do what is best for our 
soldiers and our families.
    I worry that with budget reductions, we have to just reduce 
the rate of growth. Not reduce the support, but reduce the rate 
of growth. And we are trying to come up with the best ways to 
do this. I believe with the TRICARE proposal, we still provide 
our soldiers with the best medical care possible within 
reasonable costs.
    I worry a bit about the potential costs on our lower-
ranking soldiers. And that is what we are trying to focus on, 
to reduce that to as small as possible. And we will continue to 
take a look at that as we move forward.
    Mr. Wilson. Thank you very much.
    And Mr. Secretary, this is very quick, but I have been on 
the board of the American Lung Association. I am not pro-
tobacco. But at AAFES [Army and Air Force Exchange Service], 
this generates an extraordinary amount of sales, which helps 
MWR [Morale, Welfare, and Recreation Programs] and provides 
employment for dependents and spouses. What is the policy going 
to be on tobacco sales?
    The Chairman. Mr. Secretary, could you please answer that 
one for the record? The gentleman's time is expired.
    Secretary McHugh. Be happy to, Mr. Chairman.
    [The information referred to can be found in the Appendix 
on page 93.]
    The Chairman. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thanks to both of you gentlemen for your longstanding 
commitment to our Nation's Army and our Nation's Armed Forces.
    Mr. Secretary, I couldn't help but think when you said if 
you are on the committee right now. Maybe you would like to be 
on the committee right now, what question you would ask 
yourself.
    Secretary McHugh. It would be easy, whatever it was.
    [Laughter.]
    Mr. McIntyre. But thank you for that longstanding 
commitment and friendship.
    On page 5 of your testimony, gentlemen, you say, and I 
quote: ``For the next 3 years as we continue to draw down and 
restructure into a smaller force, the Army will continue to 
have degraded readiness and extensive modernization program 
reductions.'' And in the next paragraph, you say that under 
sequestration-level spending caps, quote: ``the size of our 
Army at this level of funding will not allow us to execute the 
Defense Strategic Guidance and will put in doubt our ability to 
execute even one prolonged multi-phase major contingency 
operation.''
    In the time that I have, would either one of you, or both 
if you would like, explain what this statement of the record 
means with regard to readiness and with regard to 
sustainability? Because I think they may be seen a little bit 
differently. In fact, specifically, what level of unit 
readiness does the administration's budget request assume? If 
funded at the budget request level, how long will it be until 
we regain sufficient full-spectrum readiness and also the 
ability to sustain a major operation?
    General Odierno. Thank you, Congressman.
    First, with the statement on the 3 years, the bottom line 
is it is about the balance. And in order to achieve balance, 
you have got to get down to the right end strength levels. So 
it is going--under the President's budget, it will take us 3 
years to get to the end strength levels in order for us to get 
the end strength right so we could then start to reinvest in 
readiness and modernization. And that is when it will come 
together.
    Under the President's budget, we do that earlier. We are 
able to accomplish that balance around fiscal year 2018, which 
then allows us then to start to increase readiness. Readiness 
is not one time. It is something you have to sustain over the 
long term.
    And then that allows us to meet the Defense Strategic 
Guidance, as we have said, at significant risk, but we will be 
able to meet the Defense Strategic Guidance. Under 
sequestration, in 2016, the cuts are so severe that it will 
specifically go after readiness and it will take us longer to 
recover. And when we do finally recover, it will be in the 
fiscal year 2020 to 2023 range.
    But the problem becomes we are now a smaller Army. So the 
issue becomes with a smaller Army, although it is ready and 
capable, is it big enough to do a prolonged, long-term 
strategy. And that is the concern.
    Mr. McIntyre. So do you have an idea of how long it would 
take to reach that level? Or does that just remain an open-
ended question?
    General Odierno. The level of readiness?
    Mr. McIntyre. No, to be able to sustain an operation.
    General Odierno. Well, again, under the President's budget, 
by 2018, I believe, we begin to sustain readiness. Under 
sequestration, it will take some--about fiscal year 2023 before 
we reach that sustainment level and then we are--but we are 
much smaller as well.
    Mr. McIntyre. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Just a question on that. You said under the 
President's budget. Is that the $115 billion over and above?
    General Odierno. That is. That is.
    The Chairman. That is kind of just a wish list.
    General Odierno. That represents the $115 billion.
    The Chairman. Yes. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    General, Mr. Secretary, thank you for being here. I want to 
thank both of you for your leadership on the issue of sexual 
assault. And I want to appreciate the statement that is on page 
18 in your joint written comments, ``Our goal is to reduce and 
ultimately eliminate this crime from our ranks.'' It is, I 
think, a huge step forward on the cultural issue that the 
language of it being a ``crime'' is the issue that is 
emphasized.
    It takes us obviously to work on legislative and regulatory 
issues, but it also is a cultural issue. And I appreciate your 
leadership on that.
    Mr. Secretary, you have in your joint comments also an 
issue of suicide prevention. I have reviewed previously DOD 
reports on the issues of the stress factors affecting suicide, 
one of which is custody. Unbelievably, throughout our country, 
family law courts are taking children away from service members 
based upon either their past deployment or the threat of 
deployment.
    I have a bill which has been included in the NDAA for 
several years that would eliminate deployment as a basis for 
removal, sole basis of removal. It was endorsed by both Panetta 
and Gates. You actually voted for it as a Member of Congress in 
fiscal year 2008, 2009, and 2010 for the NDAA.
    Secretary McHugh. Thank God.
    Mr. Turner. Our chairman has set it as a goal for fiscal 
year 2015 to make certain this is the law. We have stalled in 
the Senate largely because of recent weak support from DOD. I 
would like the opportunity to sit down and meet with you to 
discuss this issue and to hopefully gain your advocacy for 
that.
    And then my question to both of you concerns sequestration. 
In your joint statement on page 3, you have a statement I think 
crystallizes the issue of sequestration. It says that the Army 
continues to face an uncertain fiscal environment in the years 
ahead.
    I would like if you would both talk for a moment about the 
issue of the fiscal cliff that you are facing. You know, 
Congress looked at it as a, we, handed you a 2-year deal, with 
the budget being certain for 2014 and 2015. But the fact that 
you have to cut a glide-path through 2015 because sequestration 
appears to return at 2016, means that you don't have the 
certainty even for 2015. That is one of the things we are going 
to struggle with is trying to put money back, but that, of 
course, places you even in a more difficult position of that 
fiscal cliff as approaches to 2016, without congressional 
reassurance that that sequestration-level spending cap in 
fiscal 2016 will not be what you are handed.
    In looking, General Odierno, in your continued efforts to 
highlight the fact that it would not allow us to do even one 
prolonged multi-phase major contingency operation if we go to 
the sequestration numbers, I would like for you both to talk 
for a moment about this uncertainty, that even for 2015--it is 
not just 2016--even for 2015, sequestration is putting you in a 
very untenable position. And of course, is risking I think our 
national defense.
    Secretary McHugh. Great question, Mr. Turner. And I don't 
want to sound ungrateful about the bipartisan budget agreement 
because it was important relief. And it has allowed us to begin 
to buy back readiness, to increase our CTC [combat training 
center] rotations, 19 planned for 2015, et cetera, or for 2014, 
I should say, et cetera, et cetera, so, much-needed help.
    But as you noted, sequestration is still the law of the 
land. And absent a definitive act over that term of time by 
this Congress, it continues to be something we have to program 
toward. The reason we are talking about 420,000 is because 
sequestration will take us to 420,000. We continue to program 
for that, although the President's proposal, if adopted, would 
allow us to sustain the 440,000 to 450,000 for the Active 
Component we have talked about.
    One of the biggest impacts that really extends outside the 
Army, but obviously affects us, is upon our industrial 
partners--the folks who look at not just the Army, but all the 
services as a customer, who need predictability both to do 
hirings and ensure they have got the right processes in place, 
got the right plants operating in the right ways.
    We can't tell them what we are going to be in a position to 
buy. That makes them less cost-efficient. It causes them to 
hire fewer rather than more people. I mean, it, at some point, 
has a pretty significant drain on the economy, all because of 
uncertainty, not because of actual economic conditions at the 
moment.
    The other thing it does for us in that same avenue, is it 
has caused us to pay more for things. If we can't enter into 
longer-term contracts with certainty, it causes us to have to 
enter into short interim contracts that generally, on a piece-
by-piece basis, cost us far more.
    So, it effects virtually everything we are doing, 
including, by the way, our ability to recruit and retain 
soldiers because they are uncertain of what their future would 
be if they sign on that dotted line.
    The Chairman. Gentleman's time has expired. Mrs. Davis.
    Mrs. Davis. Thank you.
    Excuse me, thank you, Mr. Chairman.
    And good to see you both. Thank you so much for your 
extraordinary leadership. Really appreciate it.
    A few of the questions that I wanted to ask you have been 
asked, but I might ask them in just a slightly different way.
    Mr. Secretary, you have been on the other side of the 
table, and you know in BRAC as you have mentioned, and 
certainly General Odierno as well, how difficult these 
decisions are. But, they are important. And what more can you 
share with us as we move forward and perhaps face that, the 
question that was faced last year of trying to, you know, rule 
that out?
    And I think part of it is the specifics. I think that 
people do need to know what that means in terms of readiness 
quite specifically as you look over this landscape, really, of 
additional capacity at bases, particularly operations. What 
more, you know, is there something that is quite convincing you 
would like to say about that, and again, particularly from your 
perspective, Mr. Secretary?
    Secretary McHugh. I recognize how hard it was. I was a 
member for three BRAC rounds, and I don't particularly recall 
enjoying any one of them. But, having said that, it is 
necessary for us to maintain a balance both in terms of the 
investments we are required to make in support of unnecessary 
infrastructure. That is going to continue to increase as we 
draw down our end strength.
    Obviously, fewer people mean fewer need for facilities, for 
buildings, et cetera, et cetera. And to maintain an unused 
building is just the equivalent of throwing money away. The 
Department talks about a $6 billion investment for say, a 2017 
BRAC, but they would hope over time, after 7 years, it would 
produce some $3 billion in annual savings. For the Army, $3 
billion in annual savings is a lot of money.
    And our challenge is, as we come down, if we are not 
allowed to realign our facilities, you start to hollow out.
    Mrs. Davis. Yes.
    Secretary McHugh. Because you start to have fewer and fewer 
people where the resources are taken away from their more 
immediate needs and placed into facility sustainment that just 
continues us down that downward spiral of hollowness and just 
not doing what we need to do to support.
    Mrs. Davis. I have got another question or two, so I 
appreciate that. I really wanted to hear from you because you 
have been here, and it makes a difference.
    On the question, we have--I know that my colleagues have 
talked a little bit about the sexual assault. I mean one 
question on that is how do you fence off outside influences? No 
matter how you move forward. Because we saw the complexity of 
that in the latest cases that certainly have made headlines.
    So, that is one question, but the other one, if you could 
speak to toxic leadership. General, I think you mentioned, 
maybe as we draw down a little bit, that is going to make a 
difference. How do--I mean, how do you really, at the bottom, 
deal with that issue?
    General Odierno. So we have done several things, and first, 
it is something we want to eliminate. And I will start with the 
toxic leadership. So we are doing several things. One is, we 
are doing 360 evaluations. We have done a pilot for battalion 
and brigade commanders. We are going to probably put that for 
everyone starting this fall. We are going to move that to 
noncommissioned officers as well.
    First of all, now people are recognizing that we are going 
to take a look at this, and that people are going to see that. 
And you have to change behavior. It is also about, we 
repeatedly have now put this inside all of our training 
programs, whether it be noncommissioned officer and officers. 
So, it takes time, but what they are going to see is that we 
don't tolerate it. We are also--we will not--we will hold 
people accountable.
    If you have a toxic leadership environment, you will be 
held accountable for that environment, and there are several 
different definitions of what toxic leadership can be, but we 
are working on all of those.
    I am meeting regularly with commanders regarding both this 
and the sexual assault, sexual harassment. We are having a lot 
of conversations about this. This is about--this is about us. 
This is about us. Our leadership in uniform. Taking control of 
this and working the issues in order to solve this problem and 
create an environment for everyone to excel.
    So, we have to just do that. Us. And we have to kind of not 
worry about what other people are saying. It is up--it is 
incumbent on us to take this responsibility on and do it, and 
that is the discussion we are having. It is very important that 
we continue to do this. This is not just something that is 
passing. This is something that is going to be inherent in what 
we do as we move forward, and that is the discussion we have to 
continue to have with our leaders, and they will come around.
    I am confident that our more senior leaders have. It is now 
getting it down to the junior level and making sure that they 
understand that we are serious about this.
    Mrs. Davis. Thank you. And if I may just very, very briefly 
mention, thank you for the female body armor. That--I think we 
came back from a trip to Afghanistan and pushed for that, and 
thank you very much.
    Mr. Kline [presiding]. Gentlelady's time has expired, and 
by serendipity, as I take the gavel, it is also my turn to ask 
questions.
    Mr. Secretary, you spent an awful lot of time dealing with 
issues surrounding Arlington National Cemetery. Probably 
something you didn't expect when you walked from here to there. 
And you and I have had some conversations and exchanges of 
letters because Arlington National Cemetery isn't the final 
resting place just for soldiers, but other service members as 
well.
    And for some time now, the advisory committee on Arlington 
National Cemetery has not had any Marine Corps representation, 
anybody affiliated with the Marine Corps, and so, I have asked 
you to look into that, and can you tell me, are we going to see 
that anytime soon?
    Secretary McHugh. I appreciate your attention to this. And 
it is important. I--and oftentimes, folks think of Arlington 
and do think of soldiers, but as you rightly noted, this is the 
final resting place of all men and women who wore the uniform 
of this Nation.
    We are very interested in ensuring that all the services 
are represented effectively and fairly. We, as you know sir, 
had a tragic death of the former lady, a terrific lady who had 
Marine roots in her background, and we are in the process of 
making a replacement. I have made a recommendation. The final 
determination always in these matters rests with the Secretary 
of Defense. I am sure he as well as I are somewhat frustrated. 
This is FACA [Federal Advisory Committee Act] committee. It has 
all kinds of procedural requirements. We are at the end of 
that, and hopefully we will be able to share a name with you in 
the very near future.
    Mr. Kline. Thank you.
    I appreciate your attention to this, and I know it is 
frustrating, and you for us. When you were sitting here, you 
would never have tolerated a year, year and a half sort of 
delay, but I do take you at your word, and more than that, I 
know you very well, you are doing your best to push this 
through and it just needs to be resolved.
    Switching subjects, I want to, since we have both of you 
here, very quickly, talk about readiness and where we are. I 
think, Mr. Secretary, I think it was you, maybe General 
Odierno, but I think you said that with the so-called Ryan-
Murray budget and the adjustment, you were able to start buying 
back readiness. And clearly that is what we would like to see.
    I mentioned to you very briefly that I happen to know that 
at least one of the Army infantry divisions is at a very, very, 
very low combat readiness state. And when I talked to the 
command in general, that division, he told me that he expected 
it would stay that way for another year and a half or perhaps 
more.
    And so, I understand that you are having to make trade-
offs. The chief is, and you are--and when you look at different 
units and their readiness. But my question is, is it your 
intention to keep that division or any such division just to 
keep it down and in a sort of C-4, C-5 level as you try to 
build up the others, or, are you going to try to rotate that 
through?
    Secretary McHugh. First off, thank you so much for the 
question.
    We are slowly increasing our readiness, but it is slow. I 
think I said last year, two brigades were ready. We are at 
higher than that now. We are probably closer to five or six. 
You will continue to see an increase in that readiness as we 
invest the dollars we got in 2014 in combat center rotations.
    So, it will increase. The problem is, readiness is 
temporary. It is good for about 6 months to a year or so if--
with the funding in 2014, 2015, but if it falls again in 2016, 
we will go back into this readiness problem again, and we are 
going to have to sustain a tiered readiness profile which says 
we will only have certain units that will be ready.
    We will rotate them through the Army Force Generation 
process, so it will change between units as we move forward, 
but that is really the crux of our problem with sequestration, 
because at 2016 we are going to have another readiness dive, if 
it is not changed. We have no choice because we can't take out 
the end strength fast enough in order to balance it.
    Mr. Kline. Okay. Thank you. I appreciate that answer.
    What I would hate to see is the sort of division equivalent 
of a hangar queen where you just keep them down there, you 
know, month after month and year after year. I understand that 
readiness is temporary, but the nature of this business 
sometimes is temporary. When you are called, you are called 
now. And so, if you are at C-2 now, that is where you want to 
be. Not at C-4 or C-5. I appreciate very much your answer.
    In a no doubt futile effort to set an example for my 
colleagues, I will yield back, and recognize Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Secretary McHugh, and General Odierno, thank you for your 
testimony and for your service to our great Nation.
    Mr. Secretary and General, I want to applaud the efforts of 
the Army working with the Air Force, TRANSCOM [U.S. 
Transportation Command], and MDA [Missile Defense Agency] in 
deploying the THAAD battery to Guam last year, which, Mr. 
Secretary, you mentioned in your testimony. The deployment was 
relatively quick and remains successful.
    Although Guam had other missile defense assets providing 
protection, the THAAD is an added defense against North Korea 
aggression and their threats. And the people of Guam are very 
supportive of THAAD remaining on the island. But we acknowledge 
it may have to redeploy if other contingencies arise.
    So that said, can you comment on efforts to keep the THAAD 
on Guam and in the coming years?
    I understand we are looking at a change of the command 
soon, but what efforts are underway to keep THAAD on Guam for 
the future? And also, to what extent are you considering 
utilizing the Guard to support and sustain THAAD on Guam?
    Secretary McHugh. I will start, and then turn it over to 
the chief.
    First of all, I had the, as I think you know, Ms. Bordallo, 
I had the chance to visit Guam, visit those troops a number of 
months ago. They were fresh on the ground, were excited by the 
mission. And I have to say the Air Force thankfully was taking 
very, very good care of our soldiers.
    During that visit, and I am sorry I didn't get a chance to 
meet with you. You were busy doing the job of representing the 
great island here in Washington. But I did meet with the 
Governor. And your statement that the people of Guam are very 
supportive was certainly reflected in his enthusiasm.
    As I am sure you are aware, that stationing was led by the 
PACOM commander, Admiral Sam Locklear. He has theater 
responsibility. We certainly stand ready to provide the mission 
as he sees fit. This is a very high-demand, low-density asset. 
And as you noted, we will have to make adjustments should 
contingencies arise. But for the moment, I think we are doing 
quite well.
    Chief.
    Ms. Bordallo. General, before you start, I just want you to 
know, Mr. Secretary, that I have taken a couple of CODELs 
[congressional delegations] that have visited Guam out to look 
over the THAAD operation.
    General.
    General Odierno. We are working with the joint staff to--we 
are at least working to see what it would take to sustain the 
THAAD battery there for the long term. And we are working with 
the Air Force. So we are taking--and we are looking at it from 
an Army perspective--what would it mean if we had to sustain 
that there for the long term in terms of rotational 
capabilities, type of THAAD? So we are clearly looking at that 
and preparing, if that decision is made that we want to leave 
it there.
    The deployment has gone very well. We are very pleased with 
the support we have gotten there. I know the PACOM commander 
supports it staying there in Guam. So we are preparing and 
looking at the options that would allow us to keep it there.
    Ms. Bordallo. Thank you, General.
    And also, I said, what extent are you considering utilizing 
the Guard to support and sustain THAAD?
    General Odierno. So, what we will do is, we will still--
this will be part of our strategy. One of the things--one of 
the options we are looking at, and I will just throw this out 
there, is that not buy more equipment, but increase number of 
crews and capabilities, so you rotate the crews on the 
equipment.
    So as we work our way through that, we will look at all the 
components to see how we can solve that problem. But that is 
one of the solutions we have, because we believe in the future 
this could be a problem not only if we sustain in Guam, but if 
we do other deployments around the world. That is one of the 
options that we are taking a look at.
    Ms. Bordallo. Thank you, General.
    I have another question and I have very little time left. 
The question is for either of you. I read about the Army's 
``Pacific Pathways'' strategy in the Washington Post. My staff 
has had subsequent briefings on the matter and we appreciate 
that the Army is trying to articulate its strategy for the 
Pacific.
    However, I am concerned that the strategy does not 
adequately account for the potential of the Army supporting 
additional missile defense capabilities in the Pacific. It also 
does not mention or adequately address the capabilities 
provided by the National Guard State Partnership Program.
    So I am concerned this strategy isn't really taking a 
holistic look at the Army's future in the Pacific. Can you 
comment on this strategy, its way forward, and some of the 
items that I discussed?
    General Odierno. Thank you. We are committed to supporting 
the Asia-Pacific region with our 80,000 Active and Reserve 
troops that are there in the region supporting that. Actually, 
we have funded a 27 percent increase in the State Partnership 
Program in support of PACOM in the budget. So we are looking to 
expand that program.
    It is a key program to supporting us. In fact, we are 
bringing States in to increase our relationship with the 
countries within the Asia-Pacific region. That is a centerpiece 
of this strategy.
    The other centerpiece is that it is--the Guard and Reserve 
have unique capabilities that allow us to continue to engage on 
several different lines, and that is part of the Pacific 
Pathways strategy. So I feel confident that as we move forward 
with this, it has to be a multi-component solution. It cannot 
just be one component. We need the whole Army involved in 
solving this problem.
    Mr. Kline. The gentlelady's time has expired.
    Ms. Bordallo. My time is up. Thank you.
    Mr. Kline. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And thank both of you for being here. And I also want to 
thank both of you for making separate but recent trips to the 
Anniston Army Depot in my district. It was an honor to have 
each of you there. That installation does an outstanding job of 
supporting our warfighter. And because of its exceptional work 
in that role, they are in pretty good shape; and also the 
mission they play for the military, they are in pretty good 
shape. But I know the rest of the organic industrial base is 
not in as good a condition.
    The question I have for you is: Does the Army plan to move 
any work from the Anniston facility--Anniston to facilities 
with less workload in order to prop them up?
    Secretary McHugh. Mr. Rogers, thank you for your comments. 
I enjoyed very much my trip there. It was good to get a chance 
to chat with you.
    As I am sure you understand, we are continuously assessing 
workload distribution across the entire Army organic industrial 
base, both the depots as well as the arsenals. We have not made 
any particular decisions in that regard, but I have to be 
frank, particularly as we come back out of theater, and once we 
are through reset, which we, I should add, would require 
funding for 3 years post-conflict to make sure we are resetting 
all of the returned equipment.
    The workloads are going to have to be reexamined and 
rebalanced. But, you know, if that occurs, we will certainly do 
everything necessary to keep you informed. Right now, we are in 
the analysis phase and we are not prepared to make any 
announcements in that regard.
    Mr. Rogers. Well, we are--the Alabama delegation, we are 
paying a lot of attention. And, you know, it is a very cost-
efficient facility. And that is one of the reasons they are in 
good shape. And we hope that money is a big factor in your 
decision, and efficiencies, when you decide what to move where. 
Because we think you get a good deal and the taxpayer gets a 
good deal at Anniston.
    My next question has to do with the AMPV. I am hearing that 
there have been some concerns raised about the current RFP 
[request for proposal] that was issued by the Army. In the near 
future, I would like to meet with both of you to talk about 
some of the concerns I have about that. But for this hearing, I 
am not really focused on the RFP. I am focused on the future 
depot work--maintenance work for the AMPV.
    My primary concern is where the vehicles will be built and 
maintained throughout their life cycle. I believe strongly it 
should be the Anniston Army Depot and here are some reasons 
why. The AMPV is intended to replace the M-113. Since 1995, the 
Anniston Army Depot has been the home of life-cycle maintenance 
for the M-113 family of vehicles.
    Secondly, it certainly appears that the AMPV will be a 
track vehicle. The Anniston Army Depot is the center of 
industrial and technical excellence for track vehicles. That 
means the track vehicle work is part of Anniston's core 
workload.
    And then finally, the model for public-private partnerships 
for the production and life-cycle maintenance of the Army's 
land fleets has been the Stryker, which is performed in 
Anniston. And as you know, the Stryker has performed well in 
recent conflicts. Therefore, Anniston has been the best 
capitalized facility to do the same work for the AMPV.
    Given these facts, do you expect the production and life-
cycle maintenance for the AMPV vehicle--AMPV fleet at Anniston? 
Or are you looking to share the work with other facilities 
within the enterprise?
    Either one of you.
    Secretary McHugh. I would prefer to have the acquisition 
ACSAM [Assistant Chief of Staff, Acquisition Management] come 
to speak to you directly. The biggest part of that reason, as I 
mentioned earlier, this is--the bid is in an agency protest. 
That, as you know, severely constrains what we are advised to 
say publicly about it. You noted I think very accurately the 
advantages and the competitive success that Anniston has 
demonstrated. If and when we get to that point, which I hope it 
is ``if'' not ``when,'' we will certainly make the most cost-
effective decision we can.
    Mr. Rogers. Thank you both very much.
    I yield back.
    Mr. Kline. I thank the gentleman.
    Mr. Courtney, you are recognized.
    Mr. Courtney. Thank you, Mr. Chairman.
    I want to thank, again, both witnesses. It is great to see 
our former colleague here, and also General Odierno. Those 
stripes on your right sleeve are, in my opinion, very powerful 
evidence of, you know, the fact that every word you present is 
backed with an outstanding, almost unprecedented level of 
service in the Middle East. And a number of us had a chance to 
visit you over the years there and your commitment to our 
Nation, again, is just unquestioned.
    Mr. Secretary, you talked in your opening remarks about the 
sacred covenant that we must have with the people who have 
served in the Army. And I know both of you believe in that 
unquestionably. I wanted to share with you a story about an 
Army National Guard wounded warrior from my district who in 
2007 was in a rollover. He is 100 percent medically disabled 
from a TBI [traumatic brain injury] injury that he suffered as 
a result of it. So he was medically retired. He is still 
within, obviously, the DOD sort of benefit structure. And his 
TRICARE coverage, which was TRICARE ECHO [Extended Care Health 
Option] at the time of the injury, because TRICARE Standard 
once he went into a retired status.
    If you fast-forward a couple of years ahead, he is a young 
guy. He and his wife had a baby about a year ago. 
Unfortunately, she was born with a pretty severe disability. It 
is a condition called ``short colon,'' which requires nutrition 
to be done through feeding tubes. They can't feed normally. And 
the doctors prescribed about 40 hours of home health services 
for the care of this child at home. She has to be fed and 
changed every 2 hours.
    TRICARE Standard does not--the structure of TRICARE 
Standard, as I found out, is really patterned after Medicare. 
So that families with young children and pediatric issues, 
particularly sort of intensive specialized care, it is a square 
peg in a round hole. And we have been for the last 4 months 
trying to work with Health Net to try and just figure out some 
help in the home. We are--we think we were able to sort of 
scrape a plan together for 16 hours of care, but again, if you 
think of the sleep deprivation, if nothing else, that this 
family experiences with that kind of intensive care, it is not 
helping the wounded warrior in terms of his issues.
    And frankly, it just sort of begs the question about, you 
know, how we really take care of these families. Again, TRICARE 
ECHO, it would not have been an issue at all in terms of 
getting the full complement of prescribed care that, you know, 
the child's doctors have prescribed.
    So again, I am not asking you to, you know, answer on the 
spot here, but, you know, when we talk about restructuring 
TRICARE, and again, this is a challenge we have got to talk 
about, as the General said. But frankly, there are gaps, you 
know, for particularly young medically retired in TRICARE that 
I would like to work with both of you to try and fix.
    I mean, this guy, you know, he did what he was asked to do. 
He is going to carry this wound for the rest of his life, and 
his family should not be sort of trapped in this sort of gap in 
coverage. And again, I am not asking you to--you know, 
explicitly, but I just want to make you aware of the fact that, 
you know, there are these sort of special case problems that I 
think these conflicts are going to continue to sort of 
manifest.
    Secretary McHugh. Thank you, Joe. You know, first of all I 
deeply appreciate the focus and the devotion that you have 
brought to this individual soldier. And I know it transcends 
just a single individual, and you have really, I think, struck 
upon one of the challenges--as you have said--will be with us 
for many years.
    The good new of Afghanistan-Iraq is people are surviving 
the battlefield and wounds that in all likelihood they would 
have never survived before.
    As many of you have seen--the chief and I certainly have 
seen in many visits to Walter Reed--the challenges many of 
those wounds of survivors are facing incredibly challenging 
circumstances physically. I think it is fair to say back in 
1996 and in 1997 when TRICARE was fully stood up that no one 
really considered this aspect of it.
    And, as happens in the private insurance industry as well, 
sometimes you find your needs misaligned with your policy 
coverages. And we want to certainly do everything we can do to 
support the activity through the TRICARE Management Activity 
center and others to try to close those gaps where they exist.
    So if there is anything we can do to join in your effort, 
we certainly stand ready to do that.
    Mr. Courtney. Well thank you, Mr. Secretary and help that 
actually is poised to try to work this through to come up with 
solutions for families like the----
    Secretary McHugh. Right.
    But, we have to make sure we are not placing obstacles in 
front of them from having that happen.
    Mr. Courtney. Right, thank you----
    Mr. Kline. The gentleman's time has expired.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here this morning. And 
Chief, I want to identify with what Joe said about your long 
service and the absence from your family all those years, thank 
you very much.
    Seems like a topic that you probably should not talk about, 
but based on all the struggles and the stuff that you guys have 
been putting forward, I have got to ask you about audit 
readiness. Hagel had it in his opening remarks--in his written 
remarks. I did a quick look at your prepared remarks, and I 
didn't see it there.
    Accountants and auditors are sensitive little fellows and 
folks, and they--when they don't see the chief and the 
Secretary talking favorably about them, or just love them or 
hate them, just don't ignore them.
    So I would like to get, from both of you, the top-down 
commitment, I think--I know is there, but I just need to have 
it there--the record, but also specifically talk about as we 
make this move to the GFEBs [General Fund Enterprise Business 
Systems], which looks like it is moving well and is essential 
to getting to the auditability part, ongoing there is a 
tendency to cling to legacy systems, because they are the 
comfortable pair of shoes that you liked in the field and you 
know work. And there is some evidence that you are not making 
the full move away from legacy systems and that--while that may 
help temporarily, it is not going to be the long-term solution.
    And so, can you talk about the process and just give us a 
general update on where the Army is with respect to meeting 
the--Panetta's original commitment, and now the commitment to 
get audit ready by next year.
    Secretary McHugh. Well, I would suggest the reason it 
wasn't mentioned, we are just simply confident that it is going 
to happen. We didn't want to----
    [Laughter.]
    Mr. Conaway. Well, I appreciate that. I appreciate that.
    Secretary McHugh. At least that is my story for the moment.
    As you know, sir, this is something that is not just 
important; it is stated in law that we have to be auditable by 
2017. We are, we believe, fully on track to meet that. Our ERPs 
[enterprise resource planning] have been going very well. You 
mentioned GFEBs, we have had a series of rollouts of those. We 
are taking them in segmented fashion so that we can ensure we 
are managing it in the right way, and to this point in my 
discussions with recently retired Assistant Secretary of the 
Army for Financial Management and Comptroller were having very, 
very good success.
    We are mindful of what you said about the retention of past 
practices and legacy systems. Perhaps the biggest challenge is 
to wean people off things and processes in which they have 
dealt with for years. Even when say GFEBs is available, they 
try to do work-arounds and stay with what is familiar. And that 
is why in part we have been segmenting the rollouts so we can 
keep an eye on that and make sure that folks are going the 
right way.
    The chief and I have ordered an analysis and an 
optimization study throughout FMMC [Fort Myer Military 
Community] to make sure that we are aligning ourselves in cost-
efficient and effective ways. I had a brief discussion 
yesterday with Bob Hale, the DOD Comptroller, about 
auditability and we are going to continue to work toward it. 
And for the moment I think all systems are go. Although, until 
we are there, we are not going to assume anything.
    General Odierno. If I could just add, we are taking this 
very seriously. And I apologize if that didn't come forward, 
but, you know, I speak to every installation commander before 
they take over and I provide them a letter of instruction.
    Part of that letter is a piece on audit readiness, and the 
importance for them to support the efforts that are going on, 
that the Secretary has really pushed us towards meeting these 
goals. We are doing mock audits on a regular basis so we 
understand where we still have some issues. That is helping us 
to identify where we can improve. We have awareness down really 
to the lowest levels that this is really important, and by 2017 
we have to be audit ready.
    So I am comfortable that we have identified the problem. I 
am comfortable that we are focusing on it. We still have to 
make sure that we are addressing any of the gaps that we might 
find as we move forward, but I am confident that we are heading 
in the right direction.
    Mr. Conaway. You talk most about the challenge that you are 
having from a budget standpoint and the many places dollars can 
go. Are you able to sustain the necessary resources to do this 
work as well?
    General Odierno. The budget completely reflects this--the 
capabilities we need to meet audit readiness by 2017.
    Mr. Conaway. Thank you both. Music to my ears, and I know 
the folks who are working really hard at this. It is tough 
stuff. It is not particularly glamorous, and you don't get a 
lot of medals for it, but it is important for the country's 
health.
    Thank you, very much, for your service, and appreciate your 
comments this morning.
    Yield back.
    Mr. Kline. Thank the gentleman.
    Ms. Tsongas, you are recognized
    Ms. Tsongas. Thank you.
    General Odierno, Secretary McHugh it is great to have you 
appearing before us today. And General Odierno, I do want to 
thank you for your visit to Massachusetts and to Natick Soldier 
Systems; it was so much appreciated. So thank you for that.
    But I would like to take this opportunity to talk to you 
both about the decision in the case of General Jeffrey 
Sinclair.
    As the record shows, General Sinclair pled guilty to the 
following: Maltreatment of a subordinate, soliciting illicit 
pictures from junior female officers, possessing pornography, 
as well as misuse of a credit card and using derogatory 
language. He was sentenced to pay a fine of $24,100, but did 
not receive any jail time or a reduction in rank.
    I would like to quote now from a New York Times article 
that discusses the culture of Sinclair's unit when he was a 
colonel. The quote is not pretty, and I take no satisfaction 
from reading it.
    Quote: ``The atmosphere in his unit was such that, at a 
farewell party when he left a brigade command 4 years ago, 
soldiers in his unit put on a skit in which one, dressed in a 
wig and clothes, in an apparent portrayal of the captain the 
general was sleeping with, acted out a scene in which `She' 
asked another soldier seated in a chair and portraying the then 
Colonel Sinclair whether he wanted oral sex.''
    From this story, and from the charges that General Sinclair 
has admitted to, there can be no doubt that General Sinclair 
abused and debased his authority in a reprehensible way, using 
it to perpetuate a toxic military culture which accepted even 
criminal behavior as the norm.
    And yet, according to the Times, it was after this incident 
that he was promoted to brigadier general. And this is just 
what we know. I don't want to imagine what we don't know.
    These series of incidents and its recent shocking outcome, 
again, in which the general did not receive a reduction in 
rank, and was not sentenced to any time in jail, raises the 
very serious question of whether the UCMJ [Uniform Code of 
Military Justice] can be fairly called an instrument of justice 
and whether an organization where rank and the pecking order 
created by rank can ever rise above the dictates of deference 
that rank demands in order to meaningfully change.
    I grew up in a family of an Air Force colonel, and I recall 
in the mornings when my father wanted us to get up and do 
whatever, he always said ``orders from headquarters,'' and we 
responded and did whatever the task of the day was.
    But to put aside that, this decision and these incidents 
has undercut the progress that has been made by Congress, the 
military and I appreciate sincere and genuine efforts that the 
Army has made and many dedicated advocates--often themselves 
victims of military sexual trauma--to create accountability and 
change a culture that too often perpetuates a predatory 
climate.
    It fuels a belief within the services and in the civilian 
world--I can't tell you how many of my constituents commented 
on the outcome in this case--that high-ranking officers receive 
and will receive special treatment, whereas enlisted members 
would be most harshly treated.
    I know that you both agree that general officers should be 
held to a higher standard, and there must be serious 
accountability when they fail to meet these standards.
    But is that currently possible?
    I have my doubts.
    I appreciate that you are--and I appreciate the question of 
Congresswoman Davis about toxic leadership and that you are 
trying to get a handle on it and create metrics. I hope that 
that includes a way in which you link toxic culture to the ways 
in which leaders fuel a culture within their unit that promote 
sexual harassment and sexual assault--all the various forms of 
military sexual trauma that we have become altogether too 
familiar with.
    This is really a comment as much as anything. I appreciate 
the extraordinary challenges you have. I am just not sure that 
you have the tools to really make change. The UCMJ is rooted in 
an organization that is deferred and defined by rank. It is 
implemented by those who are ingrained in that culture. And I 
have to say, this decision was so troubling on so many fronts.
    Secretary McHugh. Thank you----
    Mr. Kline. Thank the gentlelady.
    Dr. Fleming.
    Dr. Fleming. Mr. Chairman, I think she had a little bit 
more time left.
    Mr. Kline. Thank the gentlelady.
    Dr. Fleming.
    Dr. Fleming. Mr. Chairman, I think she had a little bit 
more time left.
    Mr. Kline. Oh she did. I am sorry. Okay. Yes.
    Dr. Fleming. Well, thank you, Mr. Chairman.
    Thank you Secretary McHugh and General Odierno, first of 
all for your service to our country. Both of you in different 
capacities, and also for being here today.
    And I listened very carefully to your discussion about the 
ratcheting down of numbers of soldiers and BCTs. And I want to 
revisit that a little bit, and so I apologize if there is any 
redundancy.
    In my understanding, we are going from 570,000 to 490,000 
soldiers; from 45 BCTs to 33 BCTs as a part of the Army 2020 
process. And importantly, the remaining BCTs will be 
reorganized through the addition of a third maneuver battalion 
and additional engineering capabilities.
    With the President's fiscal year 2015 budget submission, we 
now realize the Army will go even deeper in these cuts. We have 
already talked about going somewhere between 440,000 to 
450,000. And should sequestration stay in place, it looks like 
in fiscal year 2016 as low as 420,000.
    And I think I heard someone actually make the comment that 
that is really exactly where we are headed at the rate we are 
going at the present time.
    Well, I understand a supplemental programmatic 
environmental assessment [PEA] is already underway to look at 
these levels, so here is where I want to drill down. General, 
can you tell me when each of the remaining BCTs will be 
reconfigured with a third maneuver battalion?
    General Odierno. Excuse me. In the Active Component, we 
will complete the reconfigurance by the end of fiscal year 
2015, and we will complete, except for two brigades which will 
not convert because of room where they are at. So, all but two 
will convert by the end of 2015. In the National Guard, we are 
still working with the National Guard Bureau to define the 
timeline as they also convert to the new organization, and we 
are working our way through that.
    Dr. Fleming. Okay. Thank you, General. Do you again, 
General, do you believe you are adequately managing risk by 
implementing such large reductions to both Army 2020 while 
simultaneously implementing the supplemental PEA process to yet 
again look at more cuts?
    General Odierno. Well, if I could just make one correction, 
we are moving from 45 to 32 brigades, not 33.
    Dr. Fleming. Okay.
    General Odierno. And as I stated, that number of brigades 
in the Active Component allows us to meet the Defense Strategic 
Guidance. But with these additional cuts, depending on how far 
we go down, if we have to go down all the way to 420,000, we 
will no longer be able to. And it will significantly reduce 
more of the amount of brigade combat teams, up to eight more, 
coming out of the Active Component.
    Dr. Fleming. And based on some comments you said earlier, 
it sounds like to me if we go down to 420,000, we are really 
talking about a high-risk category?
    General Odierno. We would not be able to execute the 
Defense Strategic Guidance, which puts--I consider high risk.
    Dr. Fleming. Do you see any value in fully executing Army 
2020, meeting that commitment to the communities who host your 
soldiers before you go to the next step with this supplemental 
PEA?
    General Odierno. That is what we are in the process of 
doing, sir. We want to implement this first. We will then, the 
Secretary and I will then conduct additional assessments on 
potential future reductions and where that might occur.
    But we have to continue to--since we know sequestration is 
the law, we have to continue our process, and that is why we 
have to do the program of our minimal assessment and get that 
out there.
    Dr. Fleming. And then finally, could you please comment on 
the potential benefits and cost savings of having a BCT 
permanently stationed at our national combat training centers?
    General Odierno. We currently have one at JRTC [Joint 
Readiness Training Center]. And we have found that to be very 
helpful to have them there, so they have availability to many 
readiness and training capabilities that aren't normally there. 
It is a bit more difficult out at the National Training Center 
to have one stationed right there.
    So, that is one of the factors we take into consideration 
as we will make our assessment as we move forward, sir.
    Dr. Fleming. Right. JRTC is in my district, and as you 
know, we are vastly upgrading, enlarging, and because of 
previous program spending, are really upgrading that and 
enlarging that base. So, obviously, we see some real benefits, 
I think, to the Army in doing that.
    And I apologize, Secretary McHugh, I didn't ask you any 
questions yet, but in 30 seconds, do you have anything to add?
    Secretary McHugh. You cannot ask me a question any time you 
want.
    [Laughter.]
    Secretary McHugh. No, I think the chief has captured it 
very well. It all comes back to what both the ranking member 
and the chairman said in their opening remarks. We are not 
particularly anxious to take this Army down to 420,000. We are 
not at all sanguine about how it would look in the rationality 
of the process, but it is the law of the land. Unless it 
changes, that is where we have to go.
    Dr. Fleming. Yes. Okay, thank you, and I yield back.
    Mr. Kline. I thank the gentleman.
    Mr. Garamendi.
    Mr. Garamendi. I thank you, Mr. Chairman.
    Representative Tsongas laid out an expose of the Sinclair 
problem. I understand, a few moments ago, you talked about a 
half-day session that the Secretary of Defense had with the 
ranking members or the rank.
    My question to you is--so, as Secretary of the Army and top 
general in the Army, what are the two of you going to do about 
the Sinclair situation?
    Secretary McHugh. I will start. As the final decisionmaker 
in matters of this kind, I am really constrained in what I can 
say. Unlike in the civilian sector, when a jury comes in, and 
the case is closed, this case is not closed. They are under the 
Uniform Code of Military Justice, a continuing process of 
certification of the record providing both the victim as well 
as the general an opportunity to respond to the content of that 
record.
    The accused can make pleas for clemency, et cetera, et 
cetera. So we have a ways to go.
    What I can say is that as in the civilian sector, we do not 
have control over, nor do we try to influence, the sentencing 
of the judge. The Army was faced with the prospect of 
prosecuting this particular individual, and it did that, and it 
also prosecuted in a way that obtained a conviction. Those are 
the things we do control. And I think it is worthy to note that 
in the Army, the prosecution rate for rape is 64 percent, where 
in the private sector, it is 14 percent, 14 to 20 percent.
    So, we do take the steps necessary to hold soldiers 
accountable, but we cannot, and nor would the civilian sector, 
be able to make the determinations of a sentencing judge.
    Mr. Garamendi. So the general gets off the hook?
    Secretary McHugh. As I said----
    Mr. Garamendi. Retires with full benefits?
    Secretary McHugh. As I said, sir, the process is still 
ongoing. I have to make the final--I have to make the final 
certifications as to his rank and conditions of retirement, and 
that has not yet reached my desk.
    Mr. Garamendi. General, your comments?
    General Odierno. I have no additional comments than what 
the Secretary said. Bottom line is, the military justice 
system, like the civilian justice system, has an independent 
judiciary. In this case, he had the sole discretion of the 
sentence and the accused and the military judge made a 
decision. We now will abide by that decision and work through 
the process, as it was described by the Secretary of the Army, 
and we can't comment any further on it because it is still an 
ongoing case.
    Mr. Garamendi. When it is completed, I would expect you 
will be back here to explain what your decisions are?
    Secretary McHugh. Any decision I make would be a matter of 
public record, of course.
    Mr. Garamendi. I yield back.
    Mr. Kline. Thank the gentleman.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    And I appreciate the panelists being here today. Thank you 
very much for your leadership. I appreciate the sacrifices not 
only of you both and your families, but all those that you 
command and lead.
    I would like to follow up on earlier dialog with Ms. 
Sanchez and our panelists about the status of the force, 
morale, cohesion, professional development. In particular, a 
focus on professional military education. The vision for the 
Army changes since 2010, when I left it, and particularly if 
there are aspects of your vision that you would need changes in 
law.
    General Odierno. Right now, I don't think there is any need 
to have any changes in law. But let me walk through.
    We understand now that what we have--part of what we have 
learned over the last 10 to 12 years, and as I look to the 
future, that the complexity of the environment we are going to 
have to operate in is increasing.
    And so we have to--one of the great advantages that we have 
in our Army is our leaders, and we have got to continue to 
develop them, both noncommissioned officers and officers, in 
order to meet those increasing challenges.
    So we are completely revamping how we do training, from the 
United States Military Academy to ROTC [Reserve Officers' 
Training Corps] all the way up through general officer training 
that we are doing. We are changing what we do at Command and 
General Staff College. We are changing what we do at the Army 
War College. We have NCO 2020 that is looking at the 
development of our noncommissioned officers, and how we 
continue to train them to understand the complex environment 
and make decisions.
    I believe in the future, decisionmaking is going to be 
decentralized, and so we have to prepare our young leaders in 
order to understand this environment and the responsibility of 
making decentralized decisions, especially with the fast 
movement of information.
    So, we are totally focused on doing this. It is also about 
managing talent, and that is one of the most important pieces, 
and that we want officers that are very well-rounded. We want 
officers that can be successful tactically, but also understand 
the broader array of responsibilities that you have as you 
increase in rank, and the responsibilities of running a major 
organization, of understanding the different aspects of 
operating in a joint multinational environment, operating and 
understanding budgets, but also being operationally and 
tactically proficient.
    Those are the kind of capabilities we need. So, in order to 
do that, we need to ensure that our young leaders are getting 
trained to do this, and that we manage them in such a way that 
they are getting jobs that develop them to do and operate 
across a wide array of responsibilities.
    So, it is a combination of training and education, it is a 
combination of talent management, and utilizing the incredible 
talent that I believe we have in all the components of the 
Army.
    Mr. Gibson. Mr. Secretary, any further comments on that?
    Secretary McHugh. Well, I think the chief summed it up 
very, very well.
    Obviously, as we go forward, the more uncertainty in the 
environment, we would like to have our leaders more and more 
comfortable with uncertainty. And that takes the kind of 
training processes and the kind of approach that, as the chief 
said, that it, particularly to this credit, we have worked 
very, very hard and we view that as the key to the future.
    Mr. Gibson. And as the forces develop leadership, retained 
and developed, do you envision any potential need to change the 
personnel policies in terms of rightsizing the force and 
developing the force?
    General Odierno. So, I think one of the things we are 
doing, as we were growing the force in the 2000s, our promotion 
rates were really high, because we lacked the numbers.
    So as we shape the force as we go forward, first we are 
going to see promotion rates come down to what I consider to be 
historic levels, which I think is positive because it is going 
to generate competition. Competition. There is nothing better 
than creating great leaders is through competition. And I think 
we are going to see that as we move forward. And I think that 
is important.
    But, again, it is also making sure that we continue to have 
processes, both in not only the institutional training piece, 
but in the operational training, that we provide opportunities 
for our leaders, operationally, to think through complex 
problems like--that is why the regionally aligned force concept 
is so important. It is going to connect them to regions they 
have not been in before, such as the Asia-Pacific, such as 
Africa, such as working with our NATO allies, such as in other 
areas, that will allow them to understand the culture, the 
idiosyncrasy, social, economic aspects of what we are going to 
face in the future.
    And that is going to be a key component of this. So it is 
not only the institutional, but it is the organizational and 
operational education that is going to be important.
    Mr. Gibson. Well, it looks like I am about out of time, so 
I yield back.
    Mr. Kline. Thank the gentleman.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary and General, for being with us 
today.
    Before I ask my questions, I just want to comment on an 
experience I had last week. I had the good fortune, under the 
leadership of Mr. Wittman, to go to Afghanistan, where I 
visited with many of our soldiers, who, I have to say, are 
performing incredibly well, very professionally, under what I 
would consider very trying circumstances.
    So I think we all would agree that the statements that have 
been made by the President of Afghanistan have been outrageous 
and inappropriate.
    And I wanted to find out for my own, for myself, how this 
is affecting morale amongst our troops. And, needless to say, 
morale is very high. They are professionals. They are dedicated 
to their mission. They are carrying out, as I say, the mission 
in the midst of very trying and a very fragile situation, with 
the elections coming up just a week or so away.
    I wanted to, Mr. Secretary, ask you about a particular 
issue that I joined with Senators Flake and McCain. We sent a 
letter to you a couple of weeks ago in regard to rumors that 
the Army Test Evaluation Command, or ATEC, was looking at 
consolidating test capabilities across the Nation.
    Last year in March, March 2013, you responded to a similar 
letter, saying that these consolidations were not being 
considered. But we still hear the rumors. And, of course, 
rumors create uncertainty, and we would like to put them to 
rest.
    As you know, Fort Huachuca in my district is home to the 
Electronic Proving Ground, the EPG. It has capabilities and 
assets that simply can't be matched anywhere in the country. It 
is a critical issue for our national security, I believe, that 
we respond--we get your response to this question.
    And, Mr. Secretary, we look forward to your response, and 
hope that it will be similar to the one you gave about a year 
ago.
    Do you have any sense of when we might be able to hear back 
from you, sir?
    Secretary McHugh. That letter is staffed and being worked, 
as we speak, but we will try to expedite that to get it to you 
as quickly as we possibly can.
    As I mentioned in my letter last year, the capabilities at 
Huachuca and White Sands offer advantages that are hard to 
replicate. I can only guess that the source of the rumor 
probably has something to do with the Army-wide effort we are 
doing in looking at our administrative structure.
    We expect that there may be some changes across all Army 
processes in that regard, so we make sure we are aligned 
efficiently. But that is a separate issue from testing, per se.
    But I don't want to write the letter before it is written. 
So let me make sure we are getting you the most up-to-date, 
accurate information, and we will do that as quickly as we can.
    Mr. Barber. Thank you, Mr. Secretary. I appreciate that. 
And I think, as we spoke before the hearing, with the general 
as well, I think you know what a unique facility, installation, 
garrison we have at Fort Huachuca in terms of the capability it 
has to test without interference from flyovers or other 
electronic signals.
    And I do hope that both of you will be able to come out and 
visit us in the very near future.
    Secretary McHugh. I am trying. As you and I talked this 
morning----
    Mr. Barber. I know you are.
    Secretary McHugh. I have had three trips canceled, for a 
variety of reasons. I am beginning to think I am a jinx. But I 
am still committed to going out there.
    Mr. Barber. Look forward to having you. I know the 
community would be very excited to meet with you as well.
    Let me go--move quickly, then, since I have got very little 
time left, to a question for General Odierno.
    I want to thank you, first of all, General, for your 
incredible service to our country. And it is really 
unparalleled.
    General, I agree with Secretary Hagel that cyber warfare 
should be one of DOD's top priorities. And certainly, we have 
welcomed that. It is the capability we need, certainly, going 
into future warfare.
    And, as I mentioned earlier, Fort Huachuca has the 
Electronic Proving Ground. It is the Army's premiere C5ISR 
[command, control, communications, computers, combat systems, 
intelligence, surveillance, and reconnaissance] and 
developmental tester, with the most pristine electronic range, 
due to its geographic location. Quiet electromagnetic spectrum 
and no overflights by the aircraft.
    Because of this, it produces, really, the best world test 
results it can have. Any reduction, I believe, in the personnel 
at Fort Huachuca would put these missions at risk.
    As the Army looks at downsizing force structure, General, 
what is the Army's plan to avoid the loss of Active Duty 
military and civilians, like those that are found at Fort 
Huachuca, who have institutional knowledge to support programs 
such as cyber warfare?
    If you could comment, please.
    General Odierno. Well, first, we are increasing--during 
this budget downsizing, we are increasing our investment, so 
that is how important it is to us. And so, those people and 
that expertise is critical to us as we move forward and as we 
continue to expand the Army's role in cyber.
    And I understand the range that is out there and the 
importance of that range as we move forward. It is critical for 
our evaluation and continued testing.
    So, in my opinion, we are expanding our capability in 
cyber. We still have some decisions to make, but I think the 
capability that is in Fort Huachuca is one that is very 
important to us as we move forward.
    Mr. Barber. Well, thank you both. I am out of time.
    Mr. Secretary, General, look forward to seeing you in 
Arizona.
    I yield back.
    Mr. Gibson [presiding]. The gentleman's time has expired.
    Thanks, Mr. Barber.
    Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Gibson.
    General Odierno, all the way over here on your right, I 
have moved positions, like Mr. Courtney, I recognize the--what 
those stripes on your sleeve mean.
    And I know that over the past dozen years, many in our 
Active Component have been on a 1-and-1 cycle, 1 year overseas, 
1 year back to try and reestablish family foundations, and then 
it is right back into the fight again.
    And I realize also, as do you, that if it were not for the 
contribution of the National Guard or the Reserve forces, our 
Army would have been bent far beyond the ability to sustain 
that long-term fight.
    So it greatly concerns me when I heard you talk earlier, 
and I think it was at least twice that you mentioned the Army's 
problems in maintaining a prolonged fight if these cuts go 
through.
    So that leads me into my question, having set the preface. 
According to OSD CAPE [Office of the Secretary of Defense Cost 
Assessment and Program Evaluation], and the recent Reserve 
Forces Policy Board study, the National Guard is significantly 
more cost-effective over its life cycle, at approximately one-
third of the cost when not mobilized and approximately 80 
percent to 95 percent of the cost when mobilized.
    So I am not sure that I understand why we are proposing to 
cut the National Guard instead of relying on it more, using a 
term that you use so frequently, rebalancing, since it offers 
opportunities to save money while sustaining defense capacity 
and capability.
    So I would like you, and I will take this answer, since my 
time is very limited, I will take this answer in writing after 
the hearing, but I would like you to discuss for me why the 
Army is not choosing to keep tens of thousands of soldiers more 
in our total Army, housed in the National Guard and the 
Reserves, while remaining well inside the current cost 
constraints.
    [The information was not available at the time of 
printing.]
    Mr. Enyart. Now, for an answer that I would like to have on 
the record, the proposal to transfer the AH-64s, the Apache 
helicopters, out of the Guard over to the Active Component, are 
any of those Guard helicopters going to be mothballed or shrink 
wrapped or placed on an inactive status?
    Secretary McHugh. The short answer is no.
    I can get you a detailed answer on that.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Enyart. Thank you.
    Now, the reasoning that I have heard propounded here and in 
other places for this justification for transferring the 
Apaches, is that it is going to save money but we are not 
mothballing any, so I am not quite sure how that saves money.
    But the other reasoning I have heard is that the Governors 
can get more use out of Black Hawks, that they, the Governors, 
don't have any real use for Apaches.
    So my question is, has the mission of the National Guard 
changed? If you use that logic, what you are saying is the 
Guard is only going to be used for domestic purposes or 
disaster response.
    Has there been some shift in policy that Congress has not 
been made aware of, that would eliminate the Guard's role in 
deploying overseas and in fighting foreign threats as well as 
guarding against domestic disaster?
    General Odierno. Thank you, sir.
    First, what we are eliminating is almost 600 OH-58 
aircraft.
    Mr. Enyart. Sir, I am not talking about the OH-58s. I am 
aware of----
    General Odierno [continuing]. You are asking me----
    Mr. Enyart. I am asking you about--specifically about 
Apaches.
    General Odierno. And I will get to that. But you asked me 
why we are not mothballing Apaches. It is because we are 
eliminating OH-58 Deltas. Significant number. Almost--over 600 
of those out of the force. That is why we are doing this.
    Now----
    Mr. Enyart. General, I don't want to cut you off. I have 
only got a minute left. So you can answer that in writing to 
me, please.
    General Odierno. Okay.
    [The information referred to can be found in the Appendix 
beginning on page 93.]
    Mr. Enyart. Thank you.
    Now, the motto of the Army that I went through for many, 
many years, was that you train as you fight. And I know when I 
went to Bill Ingram's retirement ceremony, as the director of 
the Army National Guard, when he gave his retirement speech, he 
talked abut the first unit that got activated out of North 
Carolina in 2003 for Iraq was the AH-64s.
    Now, what concerns me is you are eliminating the Army's 
reserve force of AH-64s at zero dollars in savings in terms of 
that program. So I think that is not a particularly wise move 
and you are taking away from the Guard's ability to train 
because they are not going to be able to train as they fight.
    I have one more comment for you, General. And that is when 
I was a young officer, there was a well-known motto: 
``Different spanks for different ranks.'' Now, when I got to be 
a two-star, I vowed to eliminate that motto in the force that I 
commanded. And I worked very diligently to do that. In light of 
the Sinclair episode, I commend that thought to you, to 
eliminate different spanks for different ranks.
    Thank you. I yield back.
    Mr. Gibson. Thank you, Mr. Enyart.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    I, in looking at some of the issues with respect to the 
sequester and the budget, I note that the supplemental 
programmatic environmental assessment [PEA] for Fort Bliss, 
which is located in El Paso, indicates a possible cumulative 
military and civilian employee loss of 16,000 folks. And the 
supplemental PEA for Joint Base San Antonio indicates a 
potential loss of 5,900 military and civilian employees there.
    San Antonio and El Paso being the ends of the congressional 
district that I represent--as you know, it is nearly a quarter 
of Texas in that district--I know that a lot of that or all of 
that relates to the necessary--the tough decisions with respect 
to the sequester.
    But what happens to me as I go home and talk to folks is 
that the perception is you all have such a big budget, why 
can't you find the money and save the money and do this--and go 
on about the business of the Army? Why is the sequester such a 
big deal?
    Can you--if you were talking to folks in El Paso or San 
Antonio for me, what would you--how would you explain this to 
them? Because nobody feels the impact of the sequester. I mean, 
that is just another Washington story and it, you know, it 
doesn't ever really hit home.
    How would you make it hit home?
    General Odierno. Well, first of all, thank you for the 
question. What I would tell everybody is that with all the 
budget cuts we have had over the last 11 years, it results in a 
34 percent reduction in the Army's budget top line, which is 
$400 billion over about 11 years.
    So that is a significant amount of money. And so in order 
to do that, we have to get in balance readiness, modernization, 
and end strength. So in order to meet our responsibilities to 
Congress, it is important that we develop a program that allows 
us to do that.
    Unfortunately, that means we have to reduce the size of the 
Army, because the one thing we don't ever want to do is send 
people into harm's way that aren't trained or have the most 
modern equipment. So we have got to balance that.
    And that is the cost, is that we are reducing our spending 
on defense. That means we have a smaller Army. That means it 
will be one that can do less. But in order to make it--continue 
it to be capable, we have to reduce it. And that is why these 
reductions have to take place.
    Now, we can have an argument over whether it is too small 
or not, but the bottom line is with the dollars that we have 
been allocated, we have no other choice. That is the only thing 
that we can do, and that is what I would say to that.
    Mr. Gallego. Is the sequester, then, not impacting 
readiness in the sense that if you are going to just field a 
smaller Army, your smaller Army will be ready. But I would 
argue that sequester impacts the training, for example. It 
impacts--it has a real impact on the safety of our men and 
women in uniform.
    General Odierno. It does in the interim. So in other words, 
for 5 or 6 years as you are building--it all has to do with as 
you are taking end strength out, you then don't have enough 
readiness. But once you get that end strength out, we will be 
able to sustain a readiness level that is appropriate. And that 
is the end state.
    And so at the end state, you have a smaller Army that is 
ready. But in the meantime, it creates great uncertainty and 
unreadiness because we have to be very careful on how we take 
soldiers out of the Army. We want to make sure we can still 
meet our current operational commitments. We want to make sure 
we take care of our soldiers as we take them out. And we are 
taking out nearly 20,000 a year now out of the Army.
    And for us to get down to sequestration levels, we would 
have to continue that for another 5 years.
    Mr. Gallego. I would invite you--I know that you have been, 
and I know that you have been semi-frequently--and Mr. 
Secretary, you as well, to visit both Fort Bliss and Joint Base 
San Antonio. I think they are significantly important in 
national defense. Each obviously has a very different mission, 
the San Antonio mission with the medical corps and the medical 
training corps across the services.
    But I would like the opportunity to host you all and have 
you all talk to some of the folks directly about the importance 
of their mission and some of the challenges that you all face 
in the day-to-day decisionmaking with respect to these--making 
these numbers work.
    General Odierno. I am actually coming down in April to San 
Antonio, so I would be happy to set something up.
    Mr. Gallego. Great. Thank you.
    Mr. Gibson. The gentleman yields back.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service. I was with General 
Welsh this past weekend at Moody Air Force Base where the A-10 
flies out of. And I have a tremendous amount of respect for 
General Welsh. I know that he, like you, is having to make a 
tremendous amount of tough decisions.
    With regard to the A-10, my primary concern with the 
recommendation is that we are pulling down that weapons system 
over the course of 24 months, when it will be 7 to 8 years 
before the F-35 is coming off the assembly line in adequate 
numbers to replace some of the other planes that are going to 
be pulled down.
    I recognize the F-35 is not the primary to take the role of 
replacing the A-10 for close air support, but we can't have one 
plane in two places at the same time. So we are going to be 
pulling down a lot of planes over the course of the next 24 
months.
    With regard to the close air support mission, that is 
obviously going to be taken over by other weapons systems. And 
my question gets back to with the retirement of the A-10, the 
costs of flying the Apaches, what additional costs do you 
expect to incur out of the Army's budget in handling that close 
air support mission with Apaches instead of the A-10s? And what 
additional challenges, whether it be in altitude or range or 
other areas, do you anticipate A-10 versus Apache?
    General Odierno. Well, first, I think--first, I want to 
tell you the A-10--soldiers appreciate the A-10 and the 
incredible support it has given to us. It is considered to be 
an incredible, good close air support capability. What I would 
say, though, is the replacement really in the interim is the F-
16. The F-16 is going to be what gives us close air support. We 
have been using the F-16 for close air support in Afghanistan. 
They have done about 60 percent of the missions in Afghanistan 
on close air support.
    I think what we have to do with the Air Force, though, is 
work through the tactics, techniques, and procedures on how we 
continue to move forward with the F-16 providing close air 
support.
    The Apache provides some support to our ground troops. It 
provides us close, tactical, integrated air support, but it 
does not replace the responsibility and the need for close air 
support from the Air Force. And so, we are going to have to 
depend on the F-16 until the F-35 comes on board for close air 
support.
    Again, as I said, they have been providing that with that 
in Afghanistan in some cases. We need to work with them to 
develop the proper tactics, techniques, and procedures so we 
can move forward. And General Welsh and I have talked about 
this.
    Mr. Scott. As I said, I have a tremendous amount of respect 
for both of you, and I know he was an A-10 pilot, and I know 
that if we weren't in the budget situation that we are in, we 
wouldn't be talking about retiring it over the course of 24 
months. It would probably be closer to a 7-year or an 8-year 
drawdown as they went in for major depot maintenance.
    I appreciate your service and look forward to making sure 
that we maintain that close air support mission as I know you 
and General Welsh will work on as well.
    Secretary McHugh, thank you for being here. Sorry I had to 
step out for a little while, but thank you for your service.
    With that, I yield the remainder of my time.
    Mr. Gibson. Gentleman yields back.
    Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you.
    And to both Secretary and General, you have led this 
country during some extraordinary times and we value all of 
your sacrifices on our behalf.
    Secretary McHugh, I must challenge your earlier statement. 
To say that there are 5,000 soldiers who will file complaints 
for sexual assault or rape a year and only 500 of them go to 
court-martial, that means that only 10 percent of those that 
file complaints actually go to court-martial. What happens to 
the 90 percent that don't?
    So, the record is good in terms of once they get the court-
martial that you are successful, but that doesn't address the 
fact that so many of these cases go unaddressed. But that is 
not really what I want to spend time talking about this 
morning.
    General Sinclair pled guilty. He pled guilty to engaging in 
an inappropriate relationship with his accuser. He pled guilty 
for engaging in an inappropriate relationship with another 
female Army captain. He pled guilty to engaging in an 
inappropriate relationship with a female Army major. He pled 
guilty to possessing and displaying pornographic images and 
videos on his computer in Afghanistan.
    He pled guilty to using his government-issued travel card 
for personal purposes for a trip to Tuscon, Arizona, to see his 
accuser, and he pled guilty to using that same travel card for 
another trip to see her in Fort Hood, Texas.
    He pled guilty to engaging in sexually explicit 
communications with a second female captain. He pled guilty to 
engaging in sexually explicit communications with a female 
major by requesting and receiving nude photos and a sexually 
explicit video of her.
    He pled guilty to trying to start an inappropriate 
relationship with an Army lieutenant.
    This is a sexual predator. And for a sexual predator to 
gain the rank that he has gained, go through a court-martial 
process, and be given a slap on the wrist suggests to everyone 
who has been watching this case that it does not work. The 
system does not work.
    This is an issue of undue command influence. That is the 
problem. It is a problem when undue command influence does not 
move forward in terms of investigations and prosecutions, and 
it is a problem when undue command influence goes forward in a 
case that has got problems.
    Now, it is true that the defendant and the prosecution had 
come to an agreement, a pre-trial agreement in which the 
defendant agreed to a demotion and jail time. And it was the 
convening authority that refused to accept that plea.
    Now, my understanding is that you have the authority to 
demote General Sinclair. Is that not the case?
    Secretary McHugh. Under the processes for the military, 
when a soldier goes for retirement, the Secretary of the 
Department has the authority to order a grade determination 
board, and that grade determination board makes recommendations 
as to the grade at retirement for that officer. That is 
correct.
    Ms. Speier. So, let's be clear that this general pled 
guilty to any number of egregious conduct. That a lower-ranking 
individual would have been kicked out of the military. He has 
pled guilty to those, and you do have the authority to demote 
him by virtue of being the Secretary of the Army.
    Secretary McHugh. As I said, under the military procedures, 
at retirement, the service secretary of any of the military 
departments can order a grade determination board to make 
recommendations on grade at retirement.
    Ms. Speier. Are you going to order that grade determination 
board?
    Secretary McHugh. As I stated earlier, Congresswoman, as 
the decision authority in those matters, I am----
    Ms. Speier. You are not at liberty to tell us?
    Secretary McHugh [continuing]. I am not at liberty to make 
comment on what I may or may not do, particularly given that 
the case is still technically open under the UCMJ. Unlike in 
most civilian courts, there is a preparation of the trial 
record. The victim in this case will be allowed to make comment 
on those kinds of things. The accused can make clemency 
pleadings, et cetera, et cetera. So, I regret, but I am highly 
constrained from what I can say.
    Ms. Speier. All right.
    Secretary McHugh. I can say, though, as I did earlier, as I 
know you appreciate, and we all appreciate your devotion and 
focus on this very important issue. The Army only had control 
over whether or not this officer was prosecuted. He was. Those 
guilty pleas that you have mentioned came about because the 
Army did prosecute. We in the military, like in the civilian 
sector, have an independent judiciary, and the independent 
judges make determinations of sentencing.
    This officer was convicted.
    Ms. Speier. The judges though, it is important to point 
out, thank you Secretary, are JAG [Judge Advocate General] 
officers that play the role of a judge for a particular case, 
so they are still subject to the chain of command in subsequent 
cases.
    I yield back.
    Mr. Gibson. Gentlewoman yields back.
    Mr. Carson.
    Mr. Carson. Thank you, Mr. Chairman.
    Thank you, Secretary McHugh and General Odierno, for your 
service to our country.
    General, let me first start by saying I have a deep 
affection and admiration toward you for two reasons. One is 
substantive, the other is superficial. On the substantive part, 
I spent some time with you in the region a couple of years ago, 
and I found you to be very forthright, very knowledgeable, and 
greatly respected by your team and by our men and women in 
uniform.
    On the superficial side, I think you carry yourself quite 
well for a fellow tall guy and a guy who has a similar haircut. 
So thank you.
    Secretary McHugh, I recently received word about an Army 
proposal to pull some of its financial management services in-
house, and away from the Defense Finance and Accounting 
Services [DFAS]. And as you may know or if you don't know, in 
Indianapolis, Indiana, which is my district, DFAS headquarters 
is located there. And obviously this is a deeply--seriously--
serious concern for that matter, for me and my constituents 
that might have been impacted by these changes.
    But, before getting to my question, I just want to say sir, 
and you can relate as a former member, that I am disappointed 
that the Army didn't reach out to me with the details of the 
proposal, and I had to receive the information third party. So 
I know you understand my concerns, because you have been on 
this side, as well.
    But, I would like to know from you, when I learned in March 
that an Army pilot project was set to begin in April there 
really wasn't much time to properly make an inquiry and 
determine how exactly this will impact my district and DFAS as 
a whole. I don't know--you have probably seen the letter from 
the entire delegation of Indiana with several questions about 
this proposal, its impact on our State and how it might impact 
cost effectiveness and auditability of the Army.
    So I hope I can get your commitment to provide some answers 
before the general pilot program begins.
    So here are my questions, sir. Can you tell me if the Army 
is currently proceeding with a plan to realign some of its 
financial management and accounting services whether through 
the proposal I am referencing or for some other proposal?
    And, what are your goals, sir, in this process and how will 
efficacy and feasibility of a proposal be judged beyond the 
pilot stage as we know it today?
    Secretary McHugh. Thank you, Congressman.
    First of all, as I know you understand, the United States 
Army does not control DFAS. That is under the Department of 
Defense, principally the Comptroller--at the moment Secretary 
Bob Hale. I in fact had a conversation with him about this 
matter, a very brief one, yesterday. And obviously as the 
administrative head of DFAS, he is tracking very closely what, 
if any, impact the Army's current initiatives may have on DFAS.
    And I want to underscore the word ``if any.'' Our intent is 
not to have an effect one way or another on DFAS, but rather to 
optimize our financial management and financial structure 
internally.
    The project that you are, I believe, referencing is a two-
based pilot program that by and large focuses on internal 
management and internal Army financial structures. And we don't 
expect it would have much of any impact on DFAS, whether it be 
in your district, or whether it be not far from my district 
used to be in New York, in Rome, New York, for example, but we 
won't know what the outcomes may be until we do this one- or 
two-base targeted program.
    I think everybody has to be realistic though, that DFAS 
relies upon its customers and its customers are the Army, the 
Navy, the Marine Corps, the Air Force, Coast Guard. As the 
number of customers get smaller, you are going to have fewer 
transactions if no one does anything else.
    It is just realistic.
    So I mean, the face of DFAS, I would think--and it is not 
my call, would have to make some adjustments to accommodate the 
drawdown in the budget as well.
    It is just--it seems to me logical.
    But, having said that, the last point I would make, much of 
what we are doing is in pursuit of what Congress has legally 
said we must do, and that is, to become auditable. We have 
launched--you may have heard our conversation earlier with Mr. 
Conaway--launched GFEBs and other ERPs to make sure that we are 
auditable. Part of that, too, will yield inefficiencies and 
economies that may at some point have a transactional--an 
effect on the transactions with DFAS, but we have to make those 
validations.
    And I know we are working the response to you and your 
delegation's letters, so that--you know, our intent is not to 
surprise anyone, but again, this is basically an Army-focused 
exercise, but it does have the Comptroller General and the 
Department's attention.
    Mr. Carson. Thank you, Mr. Secretary.
    Mr. Chairman, I yield back.
    Mr. Gibson. Gentleman yields back.
    This concludes questions from members. Offer the Army 
leadership any final comments.
    Secretary McHugh. It is good to see a fellow New Yorker----
    General Odierno. Thank you very much, sir. We appreciate 
it.
    Secretary McHugh. Thank you, sir.
    Mr. Gibson. Well, we thank the panelists for their long 
distinguished careers, for their service, and for their 
testimony here today.
    And may God bless the United States Army.
    The hearing is completed.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]



======================================================================




                            A P P E N D I X

                             March 25, 2014

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2014

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 25, 2014

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. WILSON

    Secretary McHugh. Currently there are no changes to tobacco sales 
policy under formal consideration within the Army. However, we 
continually review and balance the competing requirements of promoting 
the health of the force, as the use of tobacco has an adverse impact on 
readiness and performance; satisfying customer wishes; and supporting 
Morale, Welfare and Recreation (MWR) programs.
    Army Regulation 215-8 allows for the sale of tobacco products at 
Army and Air Force Exchange Service (AAFES) outlets to authorized 
patrons over 18 years of age. Tobacco products are not advertised and 
all tobacco is sold from behind counters. Military retail outlets will 
not enter into any new merchandise display or promotion agreements, or 
exercise any options in existing agreements, that that would increase 
total tobacco shelf space.
    Eliminating tobacco from AAFES would result in a projected loss of 
$73M in earnings and about $36.5M in MWR dividends.
    Although there are no current plans to end tobacco sales at AAFES, 
the Exchanges display tobacco cessation products in areas that provide 
visibility and opportunity to customers who desire to change their 
tobacco habit. AAFES supports pricing of smoking cessation products 
below the local competitive price.
    Additionally, the Army Surgeon General and the U.S. Army Medical 
Command actively promote and support tobacco cessation, including the 
provision of tobacco cessation programs and products. Army Medicine 
continues to encourage all leaders to push their local installations 
and units to take steps that can help dissuade or reduce tobacco use.   
[See page 21.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ENYART
    Secretary McHugh. AH-64 Apaches transferring out of the Army 
National Guard will not be mothballed. The Army's Attack/Reconnaissance 
battalions are considered low density and high demand assets that must 
be fully trained and ready on short notice to deploy for world-wide 
contingencies and crisis response in the wake of major reductions to 
the Total Army end-strength and force structure. The divestment of OH-
58D Kiowa Warriors and the elimination of three entire Combat Aviation 
Brigades (CABs) from the Active Component (AC) will take Army Aviation 
down from 37 to 20 shooting battalions.
    Those aircraft will transfer to the Active Component and be 
repurposed to replace the OH-58D Kiowa Warriors that are being 
divested. There is an immediate requirement to fill 45 shortages that 
currently exist on Active Component AH-64 flight lines today. 
Additionally, the AH-64s coming from the Army National Guard will allow 
the Army to provide airframes to the AH-64E remanufacture line without 
taking additional aircraft from Active Component flight lines and 
reducing readiness of our attack formations.
    This necessitates transferring all Apache helicopters to the AC in 
order to meet the demands of our Combatant Commanders. The Army simply 
does not have the luxury of retaining Apache helicopters in the Reserve 
Component (RC) as it is considerably more expensive to maintain a 
sufficient, available inventory of Apaches in the RC than it is to do 
so in the AC.   [See page 42.]
    General Odierno. The proposal to reallocate aviation capability 
between the Army National Guard and the Active component should not be 
conflated with a change of mission for the National Guard. This is an 
effort to use increasingly scarce resources to best effect. There has 
been no change of mission or shift in policy. The Guard remains an 
important asset to governors in peacetime and a critical part of the 
Total Army, providing needed capacity in overseas operations.
    When considering the most effective use of limited resources, 
National Guard Formations should be optimized with ``dual use'' 
equipment and formations that are capable of supporting States and 
Governors as well as Combatant Commanders when mobilized. We must 
develop complimentary and mutually supporting capabilities. The Army 
supports a multi-component solution for operationalizing ARNG Aviation 
Brigades in non-permissive environments. Under the Aviation Restructure 
Initiative (ARI), each ARNG Aviation Brigade will have an AC AH-64 
battalion aligned with them for training and deployment. These AH-64 
battalions will deploy with an intermediate maintenance slice to 
support AH-64 maintenance and armament. This model has proven effective 
in the past, and in fact, we have a National Guard aviation brigade 
deployed to Kuwait today with an active duty attack battalion attached.
    The Black Hawk utility helicopters the Army National Guard would 
gain by this transfer play an critically important role in domestic 
operations, providing governors with capability that Apaches lack. 
Black Hawks have been, and will continue to be, a key combat multiplier 
for our commanders overseas as well. Indeed, the real world missions 
that our National Guard Black Hawk crews conduct here in the homeland 
provide them with experience that makes these crews an especially 
valued asset when they deploy overseas.   [See page 43.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 25, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. How are you incorporating lessons learned from 
contingency contracting in Iraq and Afghanistan into the professional 
military education of your military and civilian personnel?
    Secretary McHugh and General Odierno. The Army is committed to 
incorporating lessons learned from contingency contracting in Iraq and 
Afghanistan as part of the broader Department of Defense (DOD) effort 
to institutionalize the key tenants of Operational Contract Support 
(OCS) throughout the Joint Force. Properly integrated and managed, OCS 
can act as a force multiplier to help mitigate the risks associated 
with reduced force structure.
    DOD is leading the effort to improve contracting support during 
contingency operations by formulating a comprehensive plan to 
strengthen OCS policy and execution. The FY14-17 OCS Action Plan, 
currently in staffing, identifies critical capability gaps in OCS 
policy and execution and includes over 180 corrective actions to 
address the highest priority shortfalls, as outlined in the 2011 Joint 
Requirements Oversight Council-approved OCS Initial Capability 
Document. As a key stakeholder, the Army is acting in concert with DOD 
and the Joint Force to close identified capability gaps through changes 
in doctrine, organization, training, materiel, leadership (DOTML), 
planning and policy.
    In 2007, the Army formally established the Acquisition, Logistics 
and Technology-Integration Office (ALT-IO) as the capability 
developments office (DOTML) for the Army Acquisition Corps, working to 
ensure that OCS processes and best practices are integrated in Army and 
joint operations and reflected in the curriculum at the Army Logistics 
University, and are integrated across the DOTML domains.
    As part of ongoing efforts to educate and train acquisition and 
non-acquisition personnel to adequately plan, execute and oversee 
contract support in the event of a major contingency, the Army:
    <bullet>  Hosted and facilitated the OCS Joint Exercise (OCSJX) 
2014, the first in a series of joint military exercises exploring the 
use of operational contract support in future contingencies. The 
January 2014 exercise simulated a major complex catastrophe--an 
earthquake in the Continental United States--and focused on military 
support to civil authorities in the U.S. Northern Command (USNORTHCOM) 
Area of Operations.
        <bullet>  Over 500 participants: USNORTHCOM, Army-North, all 
        Service Military Departments, the Joint Chiefs of Staff J4, the 
        Defense Contract Management Agency and the Federal Emergency 
        Management Agency (FEMA).
    <bullet>  Began initial planning with U.S. Pacific Command 
(USPACOM) for OCSJX 2015.
    <bullet>  Established OCS mission roles and responsibilities to 
require unit commanders to maintain proficiency in OCS planning, 
integration, requirements development, and contract and contractor 
management in military operations.
        <bullet>  The Army Universal Task List (Field Manual 7-15) 
        establishes the Army OCS as a sustainment function, and 
        delineates separate OCS responsibilities of supported units or 
        requiring activities and those of contracting professionals
    <bullet>  Issued Army Regulation 715-9 (OCS Planning and 
Management), which prescribes policies and responsibilities for OCS.
    <bullet>  Issued Army Tactics Techniques and Procedures (ATTP) 4-10 
to synchronize Army OCS with joint doctrine (Joint Publication (JP) 4-
10: Operational Contract Support Tactics, Techniques and Procedures).
    <bullet>  Provided Army OCS training resources to practitioners, 
including numerous handbooks and graphic training aids, the Contracting 
Officer's Representative (COR) Course, Operational Contract Support 
Course (OCSC), the Joint Operational Contract Support Planning and 
Execution Course (JOPEC), and COR and Commanders Emergency Response 
Program Web Based Training.
    <bullet>  Implemented the web-based COR Tracking (CORT) Tool, which 
provides contracting personnel and requiring activities with the means 
to track and manage COR assignments across multiple contracts across 
DOD.
    <bullet>  Developed new OCS initiatives for both acquisition and 
non-acquisition personnel including:
        <bullet>  Army Operational Contract Support Board (AOCSB)
        <bullet>  Command Post Exercise-Functional (CPX-F), Exercise in 
        a Box.
        <bullet>  Department of the Army Military Contracting Board of 
        Directors (BoDs) and Senior Leader Forum (SLF).
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH
    Mr. Smith. In FY 2016 the Army is proposing to deactivate the 
Theater Aviation Command Headquarters that is part of the Washington 
Army National Guard. I would like more detail on the advantages the 
Army sees in this proposal, from both an organizational and financial 
standpoint, and any potential downsides of this proposed action.
    General Odierno. During the development of the Aviation Restructure 
Initiative plan it was determined that the Army National Guard 
possessed excess aviation headquarters that were no longer required due 
to reductions in structure and end strength. Analysis of existing 
headquarters in the reserve component confirmed the theater aviation 
commands, commanded by a one star general, were not utilized as a 
deployable headquarters to support combat operations.
    The Theater Aviation Command structure was designed and implemented 
during the previous 12 years of war. The concept of this organization 
was to provide command and control while setting the conditions to open 
and close aviation capabilities in combat theaters. In practice, these 
headquarters did not deploy as the organizations did not meet the 
requirements identified by ground commanders in Iraq or Afghanistan.
    This plan also maintains Aviation Brigade Headquarters that 
successfully provide the capabilities needed to function in a combat 
theater. Simultaneously, the actions associated with the aviation 
restructure allows the Army National Guard to meet force reduction 
requirements (personnel reduction to meet fiscal constraints) and 
reduce operations and sustainment costs.
    The National Guard Bureau planners involved in the development of 
the Army's restructure plan recommended inactivating the one Army 
National Guard Theater Aviation Command Headquarters while retaining 
existing brigade headquarters to meet mission command requirements. 
This option minimizes turmoil within Army National Guard brigades by 
maximizing the retention of current command relationships and 
structure.
    Mr. Smith. I would like a detailed breakdown of the Army's plan to 
modernize UH-60 aircraft in the Army National Guard, including plans to 
replace UH-60A models with more modern UH-60L and UH-60M aircraft.
    General Odierno. In 2014, the Army achieved the objective fleet 
requirement of 2,135 aircraft and has begun divesting the oldest UH-60A 
aircraft as we filed the UH-60M. The UH-60 Black Hawk modernization 
strategy is to recapitalize and modernize the entire fleet of 2,135 
aircraft through incremental improvements. Increment 1, which began in 
2007, procures 1,375 new build modernized UH-60M aircraft. Increment 2 
recapitalizes and digitizes 760 UH-60L aircraft and will begin in 
Fiscal Year 2018 (FY18).
    The fielding of new build UH-60M aircraft will continue until the 
end of the next decade, based on anticipated funding levels. The Army 
fields new UH-60Ms to units based on their deployment window and 
location, regardless of component to ensure the most modern equipment 
is deployed. In the future, the Army will continue to prioritize UH-60M 
fielding based on Army Force Generation requirements and will divest 
one UH-60A for every UH-60M fielded. When the Army fields new UH-60Ms 
to UH-60L units, those UH-60Ls will be cascaded to units operating 
legacy UH-60A aircraft. Over the next decade, the Army will field 
approximately 360 UH-60Ms to existing Army National Guard formations 
and cascade 111 UH-60Ls to create new UH-60 formations as part of the 
Aviation Restructure Initiative.
    Beginning in FY18, the Army will begin to recapitalize and digitize 
the UH-60L aircraft to ensure these aircraft remain operationally 
effective. Based on anticipated funding, the Army expects to produce 
approximately 48 aircraft per year and also expects this program to 
last approximately 17 years. Fielding will begin in FY19 to the 
training base and then to Command Aviation Companies, Air Ambulance 
Companies, and Assault Helicopter Battalions.
    The Army also began a UH-60A to UH-60L recapitalization effort in 
July 2007 to address sustainment and readiness issues with the legacy 
UH-60A fleet. The program upgrades provide 10 additional years of 
service life to a select number of UH-60As and will end in FY18 when 
the UH-60L Digital program begins. The UH-60A to UH-60L effort was 
primarily focused on increasing readiness in the Army National Guard, 
which operates the largest population of legacy UH-60A aircraft. When 
this program ends, approximately 412 UH-60As will have been 
recapitalized to UH-60Ls, 320 of which will have been fielded to the 
Army National Guard.
    Mr. Smith. I understand that conversion of the 81st Armored Brigade 
Combat Team into a Stryker Brigade Combat Team has been considered by 
the Army. Can you please provide an update on the potential conversion 
of this brigade and when we can anticipate receiving any updates and/or 
announcements on the 81st ABCT designation as a Stryker brigade?
    General Odierno. As the Army continues to reorganize itself due to 
budget cuts, we will continue to assess the force mix of our Brigade 
Combat Teams (BCTs), including the 81st Armored Brigade Combat Team. 
However, we are unable to make any definitive decision on type and mix 
until we come to an agreement on the overall structure of the National 
Guard.
    Mr. Smith. I would like more detail on the impact to the Army 
National Guard's structure and composition that will result from 
reductions down to 335,000 (as proposed in the President's Budget) and 
315,000 (as is projected under full sequestration). What specific units 
might the Army National Guard lose? What would the process be for 
determining what units to keep and where they should be stationed?
    General Odierno. The Army is structured as a Total Force and builds 
capability across all three Components--Active, Guard and Reserve--to 
meet national security objectives. The Army is currently analyzing the 
impact of reduced end-strength on the Active, Army National Guard, and 
Army Reserve, within the Total Army Analysis (TAA) process. Part of 
that process includes the Army National Guard identifying which 
capabilities they recommend be retained or divested by mission, type, 
capacity, and location. This proven process will identify options for 
senior leader decisions to balance Total Army capabilities within 
directed end-strength.
    At 315,000, the Army National Guard (ARNG) would have a total of 22 
Brigade Combat Teams (BCTs) with three maneuver battalions in each BCT. 
As a part of the restructure at 335,000, the ARNG would consist of 24 
BCTs with 3 maneuver battalions in each BCT. This will allow the ARNG 
to maintain all maneuver battalions except for one.
    Identification of specific unit and location detail for all 
components will not be available until the completion of the TAA 
process which is anticipated for fall 2014 at the earliest.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. The AH-64 Apache--It is the Army's multi-role attack 
helicopter of choice and will remain so through 2040, in addition to 
being a high demand asset in Afghanistan. To meet this need, the Army 
plans to remanufacture all 634 Apache ``D'' models to the ``E'' model 
configuration to further enhance and increase its capability. I 
understand the intent of the Army is to execute a multi-year 
procurement contract in fiscal year 2017. What efficiencies and cost 
savings could we expect by using a multi-year contract to acquire 
upgraded Apaches?
    Secretary McHugh. The Army is currently pursuing multi-year 
procurement authority for the AH-64E program and is working to satisfy 
the necessary statutory requirements by the start of FY 2017. Multi-
year contracts typically provide for unit-price cost savings associated 
with larger procurement quantities, and increased efficiency through 
the elimination of repeat labor and consolidated contracting. They also 
provide industry with a predictable production workload over the 
contract term. The Apache Program Office is currently preparing the 
Business Case Analysis to estimate the cost savings of a multi-year 
Apache procurement.
    Mr. Wilson. The Department of Defense uses both annual contracts 
and multi-year contracts when acquiring goods and services. Under 
annual contracts, DOD uses one or more contracts for each year's worth 
of procurement of a given kind of item. Under multi-year contracts, DOD 
uses a single contract for 2 to 5 years' worth of procurement. The 
multi-year contract: 1) results in supplier price breaks for larger 
quantity purchases, 2) eliminates repeat labor and bureaucracy by 
buying only once, and 3) provides the stability of a set number of 
years' worth of production. In fiscal year 2013, when a 5-year multi-
year contract was signed for the CH-47 Chinook helicopter, the savings 
were $810 million--or over 19 percent--when compared to five single-
year contracts. What is the Army's approach toward the use of multi-
year contracts? Can we expect to see additional ones, such one for the 
Apache Helicopter in fiscal year 2017, in the future?
    Secretary McHugh. When appropriate, the Army seeks to employ multi-
year contracts to achieve cost savings. Army Aviation currently 
utilizes two multi-year contracts, one for the UH-60 Black Hawk and one 
for the CH-47F Chinook. Combined, these contracts will result in over 
$1 billion in savings. The Army is currently pursuing multi-year 
procurement authority for the AH-64E Apache program and is working to 
satisfy the necessary statutory requirements by the start of FY 2017.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. I noted the release in February of FM3-38, which used 
the term Cyber Electromagnetic Activities to address the blurring of 
the boundaries between traditional cyber threats, traditional 
electronic warfare threats, and spectrum management operations. While 
the attention being given to this regime in doctrine is certainly 
notable and a positive step, these fields are so dynamic that 
coordination of effort across DOD, particularly given current fiscal 
constraints, is of paramount importance. Are you comfortable with the 
current state of coordination within the Army and between the DOD and 
other services, not just operationally but also in terms of investments 
in systems and R&D? What do you think have been your particular 
successes and challenges?
    General Odierno. Yes, I am comfortable with the current state of 
coordination within the Army, and between the services and the 
Department of Defense (DOD). Within the Army, the stand-up of the Cyber 
Center of Excellence consolidates Army cyberspace operations, 
electronic warfare (EW), and spectrum management operations (SMO) for 
capability development, integration, and training, and it ensures 
coordination between the relevant Army force modernization proponents. 
Operationally, Cyber Electromagnetic Activities (CEMA) elements are 
being created within Army tactical units to integrate, coordinate, and 
synchronize organic and higher echelon cyberspace operations, EW and 
SMO in support of those units' missions. The Army is studying what 
capability investments are needed to plan and execute CEMA operations. 
Our Research and Development (R&D) community is conducting research in 
``dual use'' cyber and EW capabilities and maintains close liaison with 
the R&D organizations of the other services and DOD to allow mutual 
leveraging of research in these areas. Army CEMA is nested with the DOD 
Joint Concept for Joint Electromagnetic Spectrum Operations (JEMSO), 
which includes EW and SMO, and the Army participates in three of the 
Office of the Secretary of Defense Communities of Interest (COIs) for 
Electronic Warfare/Electronic Protection, Cyber and the Strategic 
Command JEMSO Concept of Operations development with the other 
Services. The Army is collaborating with the DOD Chief Information 
Officer in support of the DOD Spectrum Strategy that assists in 
addressing a unity of effort for EW and SMO.
    Successes: The Cyber Center of Excellence recently achieved 
provisional status. This single organization is responsible for cyber, 
EW, and SMO doctrine, training, and capability development integration. 
Army Functional Area 29 EW Officers receive training in cyberspace 
operations and SMO, in addition to EW, to enable them to lead the CEMA 
Elements in Army tactical units and further integration of Military 
Occupational Specialty 25E Spectrum Managers at battalion and brigade 
level. Requirements are in the Army's validation process for 
development of Army ``dual capable'' systems for planning and 
delivering cyber and EW effects.
    Challenge: Maintaining momentum in Cyberspace, EW, and SMO 
development in a fiscally constrained environment.
    Mr. Langevin. What is the current status of ARFORCYBER? What more 
do you see that needs to be done to improve the Army's ability to 
protect its networks, as well as being able to conduct full spectrum 
operations?
    General Odierno. U.S. Army Cyber (ARCYBER) Command is assigned as 
an Army Force Component Headquarters to U.S. Cyber Command (CYBERCOM). 
It operates under the operational control of U.S. CYBERCOM with a Title 
10 Service administrative control responsibility to Headquarters, 
Department of the Army for the manning, training, and equipping of its 
force. ARCYBER has the authorities, manpower, and capabilities to 
accomplish its current missions.
    ARCYBER and its subordinate commands, in partnership with CIO-G6, 
are deliberately investing in critical cyberspace capabilities to 
ensure they stay ahead of the growing cyber threat. To better defend 
all Army networks, ARCYBER is aggressively: 1) building Cyber Mission 
Force (CMF) teams of highly trained Soldiers and civilians; 2) 
acquiring and fielding the latest technology to equip these teams; and 
3) ensuring access to critical indications and warning intelligence to 
further compliment our defensive capabilities. To ensure the command 
can conduct full spectrum operations, ARCYBER has established a Joint 
Force Headquarters-Cyber to command and control CMF teams along with 
establishing links for these teams to timely intelligence--a decisive 
advantage this nation possesses within cyberspace--that will ensure 
operational success in this domain.
    Mr. Langevin. Can you provide for us an update on the Army's 
fielding of Cyber Mission Teams to USCYBERCOM, and are you comfortable 
with the pace of training those teams?
    General Odierno. The Army is on schedule to build 41 Cyber Mission 
Force (CMF) teams per guidance from the Office of the Secretary of 
Defense. A growing number of these teams are already providing both the 
Army and US Cyber Command with operational capabilities. Additionally, 
the Army continues to build two cyber brigades (the 780th Military 
Intelligence Brigade and a Cyber Protection Brigade) under the 
operational control of Army Cyber Command, Joint Forces Headquarters-
Cyber, and an Army operational headquarters (ARCYBER/2nd Army) to 
support national, Joint, and Army cyber operations. 24 of the 41 Cyber 
Mission Force teams will reach Initial Operational Capability (IOC) by 
the end of calendar year (CY) 14. Beginning in Fiscal Year (FY) 15, the 
Army will be on pace for remaining teams to reach IOC by the end their 
designated FY build: 36 teams at IOC by the end of FY15, and the full 
41 teams at IOC by the end of FY16.
    We are comfortable with the pace of training our CMF teams. Over 
the past 18 months, we have learned a lot and worked closely with the 
USCYBERCOM and the Army to improve the processes that underpin the 
successful development of these teams. We continue to work with 
USCYBERCOM to obtain the training courses and seats that our CMF teams 
require so that they can meet projected initial operating capability 
dates. We also continue to actively engage the Army's Human Resources 
Command to ensure that personnel with the right grades of rank and 
Military Occupational Specialties to fill team critical positions are 
arriving to newly forming CMF teams in a timely manner.
    Mr. Langevin. I have been concerned for some time about the 
vulnerability of our domestic and overseas military bases to 
cyberattacks on the utilities, such as power and water, on which our 
infrastructure depends. Can you provide us with an update as to how the 
Army is working with relevant stakeholders to advance the state of 
their network defenses? Are there additional authorities or incentives 
that you need in order to be able to advance the ball in this regard?
    General Odierno. It is critical that the utilities upon which our 
installations depend are secure from Cyber Attack. Army Cyber Command 
supports efforts to improve the cyber security of industrial control 
systems (ICS) the Service owns or upon which it depends. The program 
follows four lines of effort focusing on: 1) identifying the various 
systems throughout the Army; 2) integrating ICS cyber security into 
existing critical infrastructure risk management programs; 3) gap 
analysis of capabilities and capacity; and 4) collaborating with the 
ICS community of interest. The Army has already started integrating ICS 
cyber security concerns into several of its assessment programs and 
will expand the program in the coming fiscal year.
    Based on our preliminary analysis, we do not believe there are any 
shortfalls in our authorities.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. What efficiencies and cost savings could we expect by 
using a multi-year contract to acquire upgraded Apaches?
    Secretary McHugh and General Odierno. The Army is currently 
pursuing multi-year procurement authority for the AH-64E program and is 
working to satisfy the necessary statutory requirements by the start of 
FY 2017. Multi-year contracts typically provide for unit-price cost 
savings associated with larger procurement quantities, and increased 
efficiency through the elimination of repeat labor and consolidated 
contracting. They also provide industry with a predictable production 
workload over the contract term. The Apache Program Office is currently 
preparing the Business Case Analysis to estimate the cost savings of 
multi-year Apache procurement.
    Mr. LoBiondo. What is the Army's approach toward the use of multi-
year contracts? Can we expect to see additional ones, such one for the 
Apache Helicopter in fiscal year 2017, in the future?
    Secretary McHugh and General Odierno. When appropriate, the Army 
seeks to employ multi-year contracts to achieve cost savings. Army 
Aviation currently utilizes two multi-year contracts, for the UH-60 
Black Hawk and the CH-47F Chinook. Combined, these contracts will 
result in over $1 billion in savings. The Army is currently pursuing 
multi-year procurement authority for the AH-64E Apache program and is 
working to satisfy the necessary statutory requirements by the start of 
FY 2017.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. I am pleased to hear that you are committed to 
maintaining the Reserve Components as an operational force. I believe 
the Reserve Components must remain operational so we don't lose the 
experience gained over the last 13 years of combat, and to me, that 
means the Reserve Components can deploy in place of or follow-on to 
Active units either during conflicts or in steady-state rotations to 
places like the Sinai. Is the Army Guard going to be a continued part 
of the Army's Force Generation cycle? Also, think tanks did a joint 
budget drill last year and there were a variety of results. One such 
group suggested the Army look at Army Guard rotations on the Korean 
Peninsula. Has that been considered?
    Secretary McHugh and General Odierno. The Army will continue to 
build Army National Guard and Army Reserve forces through Army Force 
Generation. For example, we are planning to send one Army National 
Guard Brigade Combat Team (BCT) to Combat Training Centers in FY 14 and 
two in FY 15. These events represent a significant investment in 
preserving Reserve Component readiness and ensuring an integrated and 
ready Total Force. Pursuant to the Army Total Force Policy, the Army 
will continue to consider using Reserve Component units for steady 
state rotations, as it has in the past; however, the Army has not 
planned to employ Army National Guard BCTs for rotations to Korea 
because the BCTs cannot reach the desired level of training proficiency 
within their allotted training days.
    In general, if the Army National Guard maintains too much force 
structure, its readiness funding must be reduced. Therefore, it is 
essential that the Army National Guard reduce force structure as 
outlined in the Army's budget submission in order to preserve its 
capability as an operational force.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. General Odierno, can you go into detail on other Army 
aviation force structure considerations that would have resulted in a 
mix of combat aviation brigades (CABs) and General Support Aviation 
Battalions (GSAB) in the Active Component and Reserve Component? And 
why those considerations were ultimately not chosen? If this 
restructuring is budget driven, does it not make sense to retain some 
attack aviation capability in the Reserve Component because it's less 
costly than keeping the most expensive platform, the AH-64, in the most 
expensive component to maintain and operate?
    General Odierno. The Army's Attack/Reconnaissance battalions are 
considered low density and high demand assets that must be fully 
trained and ready on short notice to deploy for world-wide 
contingencies and crisis response in the wake of major reductions to 
the Total Army end-strength and force structure. The divestment of OH-
58D Kiowa Warriors and the elimination of three entire Combat Aviation 
Brigades (CABs) from the Active Component (AC) will take Army Aviation 
down from 37 to 20 shooting battalions. This necessitates transferring 
all Apache helicopters to the AC in order to meet the demands of our 
Combatant Commanders. The Army simply does not have the luxury of 
retaining Apache helicopters in the Reserve Component (RC) as it is 
considerably more expensive to maintain a sufficient, available 
inventory of Apaches in the RC than it is to do so in the AC.
    When considering the most effective use of limited resources, 
National Guard Formations should be optimized with ``dual use'' 
equipment and formations that are capable of supporting States and 
Governors as well as Combatant Commanders when mobilized. We must 
develop complimentary and mutually supporting capabilities. The Army 
supports a multi-component solution for operationalizing ARNG Aviation 
Brigades in non-permissive environments. Under the Aviation Restructure 
Initiative (ARI), each ARNG Aviation Brigade will have an AC AH-64 
battalion aligned with them for training and deployment. These AH-64 
battalions will deploy with an intermediate maintenance slice to 
support AH-64 maintenance and armament. This model has proven effective 
in the past, and in fact, we have a National Guard aviation brigade 
deployed to Kuwait today with an active duty attack battalion attached.
    The Aviation Restructure Initiative (ARI) was necessary due to 
severe budget restraints. ARI is designed to achieve a leaner, more 
efficient and capable force that balances operational capability and 
capacity across the Total Army. The low-density, high-demand AH-64 
Apaches transferring out of the Army National Guard (ARNG) will be 
repurposed to replace Active Component (AC) OH-58D Kiowa Warriors that 
are being divested. The transfer will enable the teaming of Apaches 
with unmanned aircraft systems (UAS) for armed reconnaissance, filling 
a critical capability need for an Armed Aerial Scout created by the 
elimination of the Armed Reconnaissance Helicopter program. In 
addition, consolidation of Apache airframes in the AC will enable the 
Army to better meet the operational demands of our Combatant Commanders 
due to the increased operational availability as a result of the 
reduced dwell times required in the AC. The ARNG will receive 
additional UH-60 Black Hawk helicopters to optimize the ability to 
perform its mission in the homeland and deploy in support of combat 
operations.
    Necessary savings are generated by divesting three entire fleets of 
Army aircraft--the OH-58A/C Kiowas; the TH-67 training helicopters; and 
the OH-58D Kiowa Warriors--an overall reduction of 798 aircraft. The 
net effect of the reduction is a 23 percent decrease in aircraft in the 
AC with only an 8 percent reduction in the ARNG. In addition to 
procurement and modernization cost savings, the Army would also avoid 
the significant operations and sustainment costs of these aging 
aircraft fleets. ARI avoids approximately 12 billion dollars in 
imminent costs. If the Army were to not execute ARI, we would be forced 
to retain many of our oldest and least capable aircraft while divesting 
several hundred modernized airframes. Upgrades to the Kiowa Warrior 
would cost over 10 billion dollars. Replacing the legacy TH-67 training 
helicopter would cost another 1.5 billion dollars. In addition, lower 
procurement rates of modernized aircraft would cost the Army 
approximately 15 billion dollars. These costs would be unbearable for 
the Army under the current budget constraints and would risk creating a 
hollow force, with less overall capability and less investment in 
modernization.
    The Army National Guard was involved in the development and 
staffing of the aviation restructure plan during the entire process. 
The ARNG was directly involved as early as February, 2013 and had 
planners present during the development of specific details of ARI.
    Under the ARI plan, the regular Army, Army National Guard, and 
United States Army Reserve all retain combat aviation units. UH-60 
Black Hawks and CH-47 Chinooks, which are in all service components, 
accounted for the majority of hours flown in a combat environment 
during Operation Enduring Freedom and Operation Iraqi Freedom.
    It is not possible to produce AH-64's at a rate sufficient to 
replace the OH-58, resulting in a multi-year capability gap. In 
addition to this, the purchase of sufficient AH-64's would cost over 4 
billion dollars in addition to an additional annual operations cost of 
more than 340 million dollars.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Secretary McHugh and General Odierno, you both are 
requesting authorization for DOD to conduct a Base Realignment and 
Closure (BRAC) in upcoming years to eliminate existing facilities and 
infrastructure because it will be a fiscal burden to the U.S. Army 
based on a smaller army that is projected to reduce from 45 Brigade 
Combat Teams (BCT) to 32 BCTs. You also testified that this smaller 
army comes with increased risk to national security and reduces the 
ability to conduct successful major ground operations. Should the U.S. 
enter another war that requires major ground operations supported by a 
larger U.S. Army, or support operations in more than one theater, how 
will the U.S. Army successfully support the ``reversibility'' of the 
facilities and infrastructure that is required to support a larger 
army? Would the U.S. Army then have to purchase new facilities and 
build new infrastructure to support a larger U.S. Army? In your cost-
benefit analysis, will it be more expensive to purchase and build new 
facilities and infrastructure to support that effort than to maintain 
the existing facilities and infrastructure? Lastly, is there a current 
plan for ``reversibility'' of facilities and infrastructure if a BRAC 
is successfully conducted by the U.S. Army?
    Secretary McHugh and General Odierno. The Army's ability to rapidly 
and effectively respond to future requirements is an important 
consideration of the BRAC process, and the Army would incorporate this 
concept of surge capacity into the application of the Military Value 
Selection Criteria. Military Value Selection Criterion #3, as proposed 
by DOD for a future BRAC round, states that the Secretary of Defense, 
in making recommendations for the closure or realignment of military 
installations inside the United States, will consider ``The ability to 
accommodate contingency, mobilization, surge, and future total force 
requirements at both existing and potential receiving locations to 
support operations and training.''
    One of the ways the Army can preserve its surge capacity is to 
retain maneuver lands, impact areas, and training ranges sufficient to 
support a larger force structure. These are among the Army's most 
precious real estate assets because they are historically extremely 
hard to replicate or acquire. Certain types of very specialized 
structures (like testing ranges and unique production facilities) can 
also fall into this category.
    By contrast, excess administrative office space and other 
facilities on the cantonment area of Army installations degrade rapidly 
when not occupied. Retaining excess capacity indefinitely, even when 
buildings are placed in ``mothball'' status, will slow but not prevent 
facility degradation. Multiple years of empty and unoccupied facilities 
retained by the Army will transform an asset that could be repurposed 
to host another mission realigned from another installation or disposed 
to benefit the local community, into a liability requiring demolition.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. A Supplemental Programmatic Environmental Assessment 
(PEA) was recently published that proposed a reduction of 2,700 
personnel from Fort Huachuca. This reduction would impact the special 
mission sets that call for low density military occupational 
specialties (MOS) and civilian experts who manage one of Secretary 
Hagel's top priorities: cyber warfare and C5ISR systems. As the Army 
looks at downsizing force structure, what is the Army's plan to avoid 
reducing the low density MOS's and civilian experts that enable the 
unique mission sets at Fort Huachuca?
    Secretary McHugh and General Odierno. The Army is in the process of 
reducing its Active Component end-strength to 490,000 by FY15, in 
compliance with current law, budget caps and the current national 
defense strategy. With further budget cuts, the Army's Active Component 
end-strength could be forced to decline to at least 450,000, and we are 
posturing to go as low as 420,000 if BCA spending levels are maintained 
for Fiscal Year 2016 and beyond. The Supplemental Programmatic 
Environmental Assessment (PEA) is in support of that planning.
    The overall numbers assessed in the Supplemental PEA do not reflect 
actual or projected losses; rather, they are designed to ensure an 
assessment of the possible environmental and socio-economic impacts for 
the entire range of potential reductions at each installation.
    Mr. Barber. If the Army were to relocate its developmental tester 
for C5ISR from the environmentally unique location at the Electronic 
Proving Grounds (EPG) to a lab in another base, how would this impact 
future research and development of C5ISR assets?
    Secretary McHugh and General Odierno. Given the nature of C4ISR 
testing, the Army cannot relocate developmental testing to a purely 
lab-based environment. Effective developmental testing requires open 
air or field testing under operationally realistic conditions. The Army 
is not changing its developmental test protocols, so the balanced use 
of lab-based and open air or field testing will continue.
    Mr. Barber. How will Fort Huachuca's testing, training, 
intelligence and signal units play a role in the emerging and evolving 
cyber warfare mission?
    Secretary McHugh and General Odierno. Signal units, strategically 
stationed under the command and control of the Network Enterprise 
Technology Command (NETCOM), play a critical role in the emerging and 
evolving cyber warfare mission of cyberspace operations. These signal 
units conduct network operations and defense measures within all Army 
networks and, as directed, within Department of Defense (DOD) 
information networks.
    NETCOM, headquartered at Fort Huachuca, Arizona, is assigned to the 
Army's newly established Second Army, and performs Army missions and 
functions relating to the cyber operations' lines of effort: Defensive 
Cyberspace Operations and DOD Information Network Operations.
    The functions that these signal units perform are focused on Army 
network modernization efforts, the day-to-day operations of the 
network, provisioning of information technology systems and services 
from the global enterprise to the regional and local levels, and the 
protection of these same systems and services. The Commander of Second 
Army is also dual-hatted as the Commander of the Army's component 
command to USCYBERCOM, U.S. Army Cyber Command (ARCYBER). By aligning 
the Army's global signal units capability under the same Commander who 
also command's ARCYBER, the Army is enhancing and enabling the cyber 
warfare mission by synchronizing Army network modernization efforts and 
day-to-day operations and security efforts with cyber warfare missions. 
The future network architecture will be inherently more defensible in 
nature and will be better postured to support cyber warfare missions 
and be operated and defended as a cyber warfare operational warfighting 
platform. When cyber warfare missions are conducted on the network, 
they will be conducted in a manner that is synchronized with and 
informed by the requirement for the network to maintain levels of 
service and capability to all Army entities that use the Army network.
    Intelligence training units will continue to integrate topics 
related to cyberspace operations into instruction for all military 
intelligence Soldiers as appropriate. As the organization's 
understanding of cyberspace operations expands, the training and 
doctrine elements that support military intelligence will continue to 
refine and update the skills required and subsequent training paths for 
all source and single discipline intelligence Soldiers.
    Mr. Barber. What is ATEC's current intent concerning future 
realignment of ATEC's assets and functions?
    Secretary McHugh and General Odierno. At this time, the Army Test 
and Evaluation Command does not have a plan to realign or consolidate 
assets or functions across the command. If studies and analysis 
identify a need to realign assets and functions within ATEC, the 
command will use the appropriate channels within the Department of the 
Army and the Department of Defense to properly inform all relevant 
stakeholders.
    Mr. Barber. Please explain the rationale for the Army's Aviation 
Restructure Initiative and how involved was the National Guard in this 
process? Does it not make sense to continue to have combat aviation 
units in the Army Reserve?
    Secretary McHugh and General Odierno. The Army's Attack/
Reconnaissance battalions are considered low density and high demand 
assets that must be fully trained and ready on short notice to deploy 
for world-wide contingencies and crisis response in the wake of major 
reductions to the Total Army end-strength and force structure. The 
divestment of OH-58D Kiowa Warriors and the elimination of three entire 
Combat Aviation Brigades (CABs) from the Active Component (AC) will 
take Army Aviation down from 37 to 20 shooting battalions. This 
necessitates transferring all Apache helicopters to the AC in order to 
meet the demands of our Combatant Commanders. The Army simply does not 
have the luxury of retaining Apache helicopters in the Reserve 
Component (RC) as it is considerably more expensive to maintain a 
sufficient, available inventory of Apaches in the RC than it is to do 
so in the AC.
    When considering the most effective use of limited resources, 
National Guard Formations should be optimized with ``dual use'' 
equipment and formations that are capable of supporting States and 
Governors as well as Combatant Commanders when mobilized. We must 
develop complimentary and mutually supporting capabilities. The Army 
supports a multi-component solution for operationalizing ARNG Aviation 
Brigades in non-permissive environments. Under the Aviation Restructure 
Initiative (ARI), each ARNG Aviation Brigade will have an AC AH-64 
battalion aligned with them for training and deployment. These AH-64 
battalions will deploy with an intermediate maintenance slice to 
support AH-64 maintenance and armament. This model has proven effective 
in the past, and in fact, we have a National Guard aviation brigade 
deployed to Kuwait today with an active duty attack battalion attached.
    The Aviation Restructure Initiative (ARI) was necessary due to 
severe budget restraints. ARI is designed to achieve a leaner, more 
efficient and capable force that balances operational capability and 
capacity across the Total Army. The low-density, high-demand AH-64 
Apaches transferring out of the Army National Guard (ARNG) will be 
repurposed to replace Active Component (AC) OH-58D Kiowa Warriors that 
are being divested. The transfer will enable the teaming of Apaches 
with unmanned aircraft systems (UAS) for armed reconnaissance, filling 
a critical capability need for an Armed Aerial Scout created by the 
elimination of the Armed Reconnaissance Helicopter program. In 
addition, consolidation of Apache airframes in the AC will enable the 
Army to better meet the operational demands of our Combatant Commanders 
due to the increased operational availability as a result of the 
reduced dwell times required in the AC. The ARNG will receive 
additional UH-60 Black Hawk helicopters to optimize the ability to 
perform its mission in the homeland and deploy in support of combat 
operations.
    Necessary savings are generated by divesting three entire fleets of 
Army aircraft--the OH-58A/C Kiowas; the TH-67 training helicopters; and 
the OH-58D Kiowa Warriors--an overall reduction of 798 aircraft. The 
net effect of the reduction is a 23 percent decrease in aircraft in the 
AC with only an 8 percent reduction in the ARNG. In addition to 
procurement and modernization cost savings, the Army would also avoid 
the significant operations and sustainment costs of these aging 
aircraft fleets. ARI avoids approximately 12 billion dollars in 
imminent costs. If the Army did not execute ARI, we would be forced to 
retain many of our oldest and least capable aircraft while divesting 
several hundred modernized airframes. Upgrades to the Kiowa Warrior 
would cost over 10 billion dollars. Replacing the legacy TH-67 training 
helicopter would cost another 1.5 billion dollars. In addition, lower 
procurement rates of modernized aircraft would cost the Army 
approximately 15 billion dollars. These costs would be unbearable for 
the Army under the current budget constraints and would risk creating a 
hollow force, with less overall capability and less investment in 
modernization.
    The Army National Guard was involved in the development and 
staffing of the aviation restructure plan during the entire process. 
The ARNG was directly involved as early as February, 2013 and had 
planners present during the development of specific details of ARI.
    Under the ARI plan, the regular Army, Army National Guard, and 
United States Army Reserve all retain combat aviation units. UH-60 
Black Hawks and CH-47 Chinooks, which are in all service components, 
accounted for the majority of hours flown in a combat environment 
during Operation Enduring Freedom and Operation Iraqi Freedom.
    It is not possible to produce AH-64's at a rate sufficient to 
replace the OH-58, resulting in a multi-year capability gap. In 
addition to this, the purchase of sufficient AH-64's would cost over 4 
billion dollars in addition to an additional annual operations cost of 
more than 340 million dollars.
    Mr. Barber. How will the Army avoid broad cuts to Tables of 
Organization for the purposes of bringing numbers down so that special 
missions that are currently valued by DOD are not hollowed-out?
    Secretary McHugh. To meet the potential for a continued reduction 
of Active and Reserve Component structure, the Army is thoroughly 
evaluating all capabilities, including those of low density forces, in 
order to structure a smaller force to meet National Security objectives 
and priorities within current budget constraints. That process 
determines the relative value of each capability in the context of all 
the missions the Army may be called upon to perform and recommends a 
minimum resourcing level, including in which component the capability 
should reside. Guidance throughout this process is to avoid the 
``hollowing'' of organizations and the Army as a whole.
    Mr. Barber. The Army said that the Supplemental PEA was one of many 
components that will be used when making force structure decisions. 
What other metrics will the Army use in their scope of analysis before 
making the final decision on reducing force structure?
    Secretary McHugh. In addition to the environmental and socio-
economic impacts assessed in the Supplemental PEA, Army realignment and 
stationing decisions are based on strategic and operational factors, 
including national strategic priorities, costs, operational 
requirements, and an assessment of installation capabilities. The Army 
uses the Military Value Analysis (MVA) model to support capability 
assessments at installations hosting Brigade Combat Teams (BCTs). The 
MVA model is a decision analysis tool designed to score installations 
on operationally important attributes related to training, power 
projection, geographic distribution, and Soldier and Family well-being.
    The Army remains a Soldier-centric force and we intend to preserve 
a high quality of life for Soldiers and Families, while sustaining 
relationships with surrounding communities. Assessments of installation 
capabilities, national strategic priorities, costs, and operational 
requirements are combined with public feedback, ensuring the Army 
weighs all considerations to make fully informed decisions.
    Mr. Barber. How does the Army specifically assess the socio-
economic and environmental impacts at the local and installation levels 
during a Programmatic Environmental Assessment and what is the best way 
for local stakeholders to address their concerns about potential 
impacts to the Army?
    Secretary McHugh. In addition to the environmental and socio-
economic impacts assessed in the Supplemental PEA, Army realignment and 
stationing decisions are based on strategic and operational factors, 
including national strategic priorities, costs, operational 
requirements, and an assessment of installation capabilities. The Army 
uses the Military Value Analysis (MVA) model to support capability 
assessments at installations hosting Brigade Combat Teams (BCTs). The 
MVA model is a decision analysis tool designed to score installations 
on operationally important attributes related to training, power 
projection, geographic distribution, and Soldier and Family well-being.
    The Army remains a Soldier-centric force and we intend to preserve 
a high quality of life for Soldiers and Families, while sustaining 
relationships with surrounding communities. Assessments of installation 
capabilities, national strategic priorities, costs, and operational 
requirements are combined with public feedback, ensuring the Army 
weighs all considerations to make fully informed decisions.
    Mr. Barber. Is the Army considering expanding additional MOS's and 
career progression in a computer network exploitation or cyber defense 
field that will meet the priorities set in the President's Budget?
    Secretary McHugh. Yes, the Army is establishing a new Cyber Career 
Management Field (CMF) 17 to provide comprehensive career progression 
for our highly-skilled cyberspace Soldiers. Currently, the Army is 
conducting an analysis to identify the appropriate force mixture of 
Military Occupational Specialties (MOS) and Functional Areas (FA) that 
will comprise the 17-Series CMF.
    Mr. Barber. Given the likelihood of the reduction of force 
structure lessening the demand for Privatized Army Lodging, is the Army 
planning to proportionally reduce that commitment in order to lessen 
the costs incurred on the Army's budget and lessen the impact to local 
economies? If so, then please explain how.
    Secretary McHugh. Regardless of whether the Army reduces or 
increases its Privatized Army Lodging (PAL) requirement, the Army will 
not incur costs for the construction, renovation, operation, and 
sustainment of its privatized lodging facilities. All PAL-associated 
costs are incurred by the private PAL partner and not by the Army.
    The PAL development plan agreed to by the Army, the private PAL 
partner, and the lender has been revised to reflect a lower room count 
in anticipation of a smaller Army force structure and reduced travel 
budgets. Across the PAL portfolio, the privatized end-state room count 
will be 1,260 rooms fewer, which represents reductions at 28 of the 39 
locations across the portfolio.
    Mr. Barber. The Army in particular has faced cuts in force 
structure (depth) and deferred much needed modernization (capability). 
How would this dual degradation in depth and capability impact the 
ability to respond to a major contingency? Is today's Army sufficient 
to meet OPLAN and CONPLAN requirements?
    General Odierno. The Total Army Force of 490,000 in the active 
Army, 350,000 in the Army National Guard, and 202,000 in the U.S. Army 
Reserve that will exist at the end of FY15 can meet the most demanding 
defense strategic guidance requirements at moderate risk.
    The Bipartisan Budget Act supports the President's Budget 
submission of a Total Army Force of 440,000 to 450,000 in the active 
Army, 335,000 in the Army National Guard, and 195,000 in the U.S. Army 
Reserve through the end of FY17. At this end strength, the Army could, 
with significant risk, meet requirements in the defense strategic 
guidance if the optimistic assumptions regarding the duration and size 
of future conflicts, allied contributions, and need to conduct post-
conflict stability operations are correct. If these assumptions are 
wrong, risk will grow significantly. In either case, as the Army 
continues to lose end strength, it will face a corollary deterioration 
in flexibility and ability to react to strategic surprise.
    If implemented, the Budget Control Act (BCA) spending caps could 
result in a Total Army Force of 420,000 in the active Army, 315,000 in 
the Army National Guard, and 185,000 in the U.S. Army Reserve by the 
end of FY19. At this end strength, the Army would not have the 
appropriate depth and capacity to successfully conduct all components 
of a prolonged, multi-phase major contingency operation as articulated 
in the defense strategic guidance under terms acceptable to the United 
States. As a result, the very real probability exists that U.S. forces 
would be unable to sustain conflict long enough to mobilize, train, and 
deploy additional formations.
    With regard to capabilities, the Army is still recovering from cuts 
to training and modernization resources due to the lingering effects of 
sequestration. Current Army readiness levels are not acceptable and, if 
the Army goes to the end strength levels required by sequestration, the 
Army may not have the appropriate capacity to meet operational 
commitments and simultaneously train to sustain appropriate readiness 
levels across the Total Army Force.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER
    Ms. Shea-Porter. Secretary McHugh, as the former Ranking Member of 
the House Armed Services Committee and prior to that of the HASC 
Subcommittee on Military Personnel, I know you understand the key 
oversight role of the committee and the importance of following its 
policy directives. In House Report 113-102 accompanying the National 
Defense Authorization Act for Fiscal Year 2014, the committee 
``identified concern regarding soldier and civilian personnel exposure 
to environmental hazards, including burn pits, dust and sand, hazardous 
materials and waste.'' The committee directed ``the Secretary of the 
Army to submit a report to the congressional defense committees by 
February 15, 2014, evaluating the potential utility of fabric-based 
solutions to address soldier exposure to inhalation of sand, dust, 
smoke, and pollutants.'' Subsequently, the Program Executive Office 
Soldier identified (in a letter from Gen. Ostrowski to me on June 17, 
2013) the proper entity to evaluate fabric-based solutions as the U.S. 
Army Natick Soldier Research, Development, and Engineering Center 
(NSRDEC) in Natick, Massachusetts, which makes sense, as NSRDEC has 
technical and scientific expertise in the areas of environmental 
protection, protective clothing, multi-functional textiles, materials, 
and fibers. Now here it is near the end of March 2014, and the House 
Defense bill passed in June 2013--over 9 months ago. Yet the Army has 
not tested or evaluated any potential fabric-based solutions to dust, 
sand, smoke and small particulates exposure, and no report has been 
issued as directed by the House Report. This disregards congressional 
intent. Can you explain why congressional intent was disregarded, and 
what steps you are taking to remedy this situation?
    Secretary McHugh. The Army has been evaluating textiles since last 
year and anticipates concluding the evaluation shortly. I would be 
happy to have you and or other Committee Members briefed on the results 
of our evaluation.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MAFFEI
    Mr. Maffei. Congress has asked for the Army's plans to leverage our 
investment in the MEADS program. Under the Army's 30-year Lower Tier 
modernization plan, it shows technical assessment of MEADS into the 4th 
quarter of calendar year 2015. What is the status of the plan and 
strategy to evaluate MEADS end-items as the Army has asserted?
    Secretary McHugh and General Odierno. The Army is currently 
executing a 3-phased plan to evaluate opportunities to harvest MEADS 
technology. Phase I will conduct a detailed assessment of MEADS 
technological maturity and help discern whether technologies developed 
under the MEADS program are sufficiently mature for harvesting against 
current requirements. This effort is currently being finalized and will 
be completed in June 2014. Phase II is also currently underway and will 
incorporate a DOD-wide assessment involving the Air Force, Navy, and 
Missile Defense Agency to determine opportunities to harvest MEADS 
technologies. Phase III will focus on harvesting and/or transferring 
technologies to specific Army programs or other Services for further 
development/integration activities. While we anticipate that some 
harvested technology transfers could begin as early as FY15, most 
technology under assessment is not anticipated to be sufficiently 
mature for harvesting until after FY15.
    Mr. Maffei. DOT&E issued a report this year and last citing 
continued deficiencies in Patriot Ground System reliability and that 
the overall system does not meet threshold requirements for reliability 
as a result. What is the threshold value for Patriot reliability? What 
is the current reliability value mean time (in hours) between failures? 
As the Army is planning to invest in excess of $1 billion in radar 
digital processor upgrades, what is the expected improvement in MBTF as 
a result of this investment?
    Secretary McHugh and General Odierno. The current threshold value 
for Fire Unit Mean Time Between Critical Mission Failure (MTBCMF) is 21 
hours, as stated in the January 2013 Joint Requirement Oversight 
Council (JROC) approved PAC-3 Increment 2 Capability Production 
Document (CPD). MTBCMF is a measure of average time between critical 
mission failures that place the system out of service and into a state 
of repair. Mean Time Between Failures (MTBF) is a measure of the 
average time between failures that does not entail placing the system 
out of service. The latest demonstrated MTBCMF from operational testing 
was 16.4 hours. Achievement of MTBCMF is driven by reliability of the 
Radar Equipment, which has 759 replaceable modules/parts. The 
incorporation of the Radar Digital Processor (RDP) upgrade will reduce 
the quantity of replaceable modules/parts from 759 to 56, which is 
expected to increase hardware reliability for the Radar Equipment from 
132 hours MTBF to 182 hours MTBF. Based on this improved performance, 
the projected Fire Unit MTBCMF value--after incorporation of the RDP--
would be 21 hours, which would satisfy the threshold system reliability 
requirement.
    The Army has budgeted $21.0 million in FY15 for 5 RDP kits, which 
will improve reliability and provide the Patriot with additional 
capability, such as improved target identification.
    Mr. Maffei. What is the status of Operational Testing on the 
Patriot Radar Digital Processor upgrades? When will it complete 
operational testing?
    Secretary McHugh and General Odierno. Developmental tests for the 
Patriot Radar Digital Processor (RDP) upgrade are scheduled to begin in 
1QFY15, with operational testing currently scheduled to begin 3QFY15 
and end in 1QFY16. However, some early contractor developmental testing 
of the RDP upgrades has begun at White Sands Missile Range to 
demonstrate performance improvements and increased reliability.
    Mr. Maffei. The Army has stated a need for an expensive Patriot 
antenna upgrade to AESA technology. What requirements gap is driving 
the need for an AESA radar upgrade and what other options have been 
studied that could meet the requirement for less cost?
    Secretary McHugh and General Odierno. The Patriot ground system was 
initially fielded in 1984, with the latest major configuration upgrade 
to the Patriot radar in 2000. Threat evolution and advancements of the 
future will continue to challenge current radar technology. There are 
four critical capability gaps driving the need to modernize our current 
radar. The first is the need to improve survivability. Based on current 
and emerging threats, Patriot is required to intercept advanced 
maneuvering threats; to operate effectively in an advanced electronic 
attack environment; and to defend against both mass and complex 
integrated attacks. The second gap is the need to sense, engage, and 
destroy evolving threats at the ranges and altitudes required for the 
defended area. The third is the capability to accurately classify, 
discriminate, and identify manned and unmanned aerial objects in order 
to prevent fratricide. The fourth critical gap is the need to improve 
reliability, availability and maintainability to ensure sustained 
defense of critical assets.
    In June 2013, the U.S. Army completed a review that showed 
operations and support savings, performance improvements, and 
reliability enhancements could be achieved by upgrading the Patriot 
radar with AESA technology. The U.S. Army is now preparing to support 
an OSD Cost Assessment & Program Evaluation led Analysis of 
Alternatives to investigate modernization alternatives available to 
improve the capability of the Patriot radar. Alternatives to be 
examined could include: upgrading current Patriot radar with the AESA 
technology insertion; a new start with pure AESA technology; harvesting 
Medium Extended Air Defense System radar capabilities; and procurement 
of other existing DOD radars.
    Mr. Maffei. In the Army's Advance Planning for Industry briefings 
from March 2014, the Army states the need for 360-degree Sensing and 
Intercept--Surveillance coverage and Fire Control, Combat and Positive 
Identification, and links to sensors and shooters. Given this 
capability for sensing and intercept was developed in MEADS, why isn't 
the Army exploiting MEADS capability with IAMD/IBCS?
    Secretary McHugh and General Odierno. The Army continues to 
evaluate opportunities to leverage technology from previous and ongoing 
investments. The MEADS Multifunction Fire Control Radar (MFCR) and Low 
Frequency Sensor (LFS) require significant additional Research 
Development Test and Evaluation investment to complete development and 
operational testing to U.S. standards. The LFS has the potential to 
offer increased capability and performance; however, the system would 
also introduce increased operational and support costs. The Army is 
currently evaluating opportunities to harvest MEADS technology based on 
the ongoing assessment of technological maturity.
    Mr. Maffei. We understand that the MEADS Radars, in coordination 
with the PM, IAMD Program office, were successfully integrated and 
demonstrated on the IBCS last November. Have those results been 
published or disseminated? Wouldn't this be relevant to a decision on 
harvesting MEADS radars for IAMD, given the approximately $2.4 billion 
the U.S. invested in MEADS?
    Secretary McHugh and General Odierno. The Integrated Air and 
Missile Defense (IAMD) Project Office granted approval to Northrop 
Grumman to use Integrated Air and Missile Defense Battle Command System 
(IBCS) software in a joint Industry Initiative between Northrop Grumman 
and Lockheed Martin, but did not participate in the demonstration. The 
demonstration was limited in its scope and showed that data 
transmission occurred between the Low Frequency Sensor (LFS) and the 
Multifunction Fire Control Radar (MFCR) to the IBCS software. Initial 
draft results were provided to the IAMD Project Office and are being 
considered as part of the Army's assessment on MEADS technology 
harvesting.
    Mr. Maffei. How much has been spent to date by the PEO 
organizations (LTPO/and PM IAMD) on integrating Patriot on the network? 
When is this capability expected to be completed and what is the 
projected cost?
    Secretary McHugh and General Odierno. The Integrated Air and 
Missile Defense Project Office has expended approximately $185 million 
to date in Research Development Test and Evaluation (RDTE) funds with 
an expected additional $55 million in RDTE funding to support testing 
efforts in FY15 to FY17. Completion of the development is expected in 
FY16 with First Unit Equipped in FY17, and Initial Operating Capability 
in FY18.
    Mr. Maffei. We understand the Army needs additional funding to get 
the Patriot system to a Mode 4 capability in Identification Friend and 
Foe (IFF). How much has been spent to date? How much time and funding 
is needed to finish development and implement on the existing radar? 
MEADS is already IFF Mode 5; when will Patriot reach IFF Mode 5? We 
understand the development of the fratricide fixes in Patriot were 
initiated almost immediately following OIF. Why has it taken over 10 
years to implement these fixes?
    Secretary McHugh and General Odierno. The Patriot system has 
incorporated Mode 4 IFF capability since the early 1980s. The Army has 
expended $43.6 million to correct Mode 4 IFF issues identified in OIF. 
The Army demonstrated initial Patriot Mode 5 capability in 2009 through 
Post-Deployment Build (PDB) software upgrades and demonstrated this 
capability in Joint level tests and exercises. Further Patriot Mode 5 
capability will be fielded with the Radar Digital Processor (RDP) 
upgrade and PDB-8 program. The RDP is in production, and the PDB-8 
software is scheduled for fielding in FY16. The Army currently plans on 
testing to demonstrate full Mode 5 capabilities in a Joint air 
environment beginning in 1Q FY15 with Initial Operational Capability in 
3QFY16. However, MEADS has not demonstrated a production-ready, tested 
sensor with Mode 5 capability, and thus does not present a ready 
alternative to Patriot modernization.
    Based on lessons learned from OIF, the Army developed a priority 
list of hardware and software enhancements to correct fratricide-
related deficiencies. Two major software changes were required, in 
addition to materiel solutions. The materiel solutions were developed, 
tested, produced and fielded serially, with fielding of the 
modifications applied to the Patriot units over time. The development, 
testing, and materiel release approvals for most of the enhancements 
were completed on schedule in FY07. Two lower-priority enhancements 
were fielded in FY11.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GIBSON
    Mr. Gibson. What is the Army's plan forward from the Rapid Fielding 
Initiative? Do you agree that the RFI equipment set has become a new 
standard for individual soldier equipment for combat units?
    How will the Army determine a long term fielding plan for 
individual soldier equipment items that are not fielded outside the 
wartime deployment cycle, but are regularly used overseas ((like the 
Army Combat Shirt)?
    Right now, under the Rapid Fielding Initiative (RFI) process, 
soldiers receive a set of flame resistant combat uniforms before they 
deploy. Is this cost-effective? Should the Army explore whether some of 
the uniforms provided prior to deployment should become standard 
equipment for combat units in training?
    Secretary McHugh and General Odierno. Since its inception, the RFI 
has been funded by Overseas Contingency Operation (OCO) funding in 
support of deploying forces. Soldiers deploying to a combat zone will 
continue to receive essential uniforms and OCIE (Organizational 
Clothing and Individual Equipment) through the RFI. Over the long term, 
the Army is assessing the viability of the RFI as budgets decline and 
combat operations conclude in Afghanistan.
    OCIE items such as the Army Combat Shirt will be fielded to 
deployers destined for combat operations. Additionally, the Army is in 
the process of identifying essential individual soldier equipment to be 
collected into contingency stores for future short-notice deployments.
    Flame Resistant (FR) combat uniforms provide protection against 
burn and spalling injury, a leading cause of casualties on the 
battlefield due to Improvised Explosive Devices. Given the high wear-
out rate of uniforms, it is unnecessary and cost-prohibitive to provide 
FR uniforms as standard issue. However, Soldiers performing mission 
roles that carry a high risk of burn injury, such as aviation and tank 
crews and fuel handlers, currently receive FR uniforms.
    Mr. Gibson. I know that there is a new global POV contractor coming 
on line that will work with Surface Deployment and Distribution Command 
(SDDC). Since issues can arise during any transition, I wanted to know 
if you thought the new contractor was prepared to provide that same 
level of service when they take over the contract. I'd also like to 
hear your perspectives as to the impacts to service members' morale if 
there are problems with the new contractor, such as vehicles not being 
delivered on time.
    Secretary McHugh. The American Auto Logistics (AAL) contract 
terminated on April 30, 2014. Effective May 1, 2014, International Auto 
Logistics (IAL) became the new global privately-owned vehicle (POV) 
provider. There will be no break in service at the CONUS facilities. To 
aid in transition, the military Services asked their personnel to only 
drop off vehicles at select OCONUS facilities on an emergency basis on 
May 1 and 2, 2014. Reduced traffic on these dates will provide 
additional time for the previous contractor to vacate the facility, and 
the new contractor to ensure that each facility is fully operational. 
These locations will be fully operational on May 5, 2014.
    With a change in contractors, SDDC is addressing several issues to 
ensure a smooth transition. SDDC sent out advisories on April 15 and 
April 24, 2014 that provided information for all Department of Defense 
Service members, civilian employees, Service Headquarters, and 
Transportation Offices regarding the implementation of the new global 
privately-owned vehicle Contract III. The advisory addressed issues 
such as the establishment of new Vehicle Processing Centers under the 
new contract, implementation details, and transition planning for POV 
customers.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY DR. HECK
    Dr. Heck. Why can the Army not field transport telemedicine within 
the next 12 months, especially since the technology has moved beyond 
TRL-7 (Technology Readiness Level) and commercial companies are 
fielding capability now?
    Secretary McHugh and General Odierno. The commercial environment 
for telemedicine is different from the military environment. The 
military environment requires significant integration and 
interconnectivity into the military operational and communications 
systems in a deployed setting, as well as Food and Drug Administration 
validation that the integrated system meets the general controls for 
transmitting medical data. Military requirements must be fulfilled in 
the following areas: cyber security (information assurance), logistics, 
and communication requirements (current radios do not have adequate 
capabilities to meet data transmission requirements). Also, for 
development and acquisition of a military system there must be an 
integrated requirements document approved by all the various military 
components that are affected.
    Based upon the results of demonstrations of military utility, there 
are still major efforts ongoing for use in the military environment. 
These efforts include testing and validating air worthiness (the 
ability for a system to operate correctly in an airborne craft without 
interference to the system or to the aircraft); the need to transmit 
the information across multi-classification domains (e.g., classified 
radio networks to the Electronic Health Record on the unclassified 
network); protection of patient data as required by the Health 
Insurance Portability and Accountability Act; and the validation of the 
types and modes of clinical data that will be by needed and used by our 
clinicians.
    Dr. Heck. What is the timeline for the integration of RC Cyber 
Forces into ARCYBERCOM?
    General Odierno. ARCYBER is closely collaborating with 
Headquarters, Department of the Army (HQDA), the Army National Guard 
(ARNG) and the United States Army Reserve (USAR) to develop a Total 
Army RC cyber integration strategy that supports Joint and Army cyber 
requirements. This RC Cyber Protection Team integration concept rests 
on four guiding principles: (1) Joint training and certification of RC 
cyber forces is the desired end state; (2) RC cyber forces will be 
developed in phases beginning in FY 14 and allocated against current 
Joint and Army priorities; (3) RC cyber forces will focus on 
foundational training and certification requirements that do not 
require Joint-level training facilities subject to availability of 
resources, priority of effort for facilities, training, infrastructure 
should shift to RC upon completion of Cyber Mission Force build in FY 
17); and (4) RC forces will train and certify to meet immediate un-
resourced Army cyber requirements.
    Dr. Heck. What mission is ARCYBER going to assign to the RC Cyber 
Force?
    General Odierno. ARCYBER, in coordination with United States Cyber 
Command, ARNG and USAR, has identified the following mission 
requirements that could be discharged by members of the reserve 
components in the near term: defensive cyberspace operations (DCO), 
cyber command readiness inspections, vulnerability assessments, cyber 
opposing force support for training, critical infrastructure 
assessments, theater security cooperation activities, Federal Emergency 
Management Agency support, augmentation to active component cyberspace 
organizations, support to Joint Force Headquarters-Cyber, and 
intelligence support to cyberspace operations.
    The desired end state for the main effort is 21 Reserve Component 
(RC) Cyber Protection Teams (one full-time Title 10 ARNG CPT; 10 Title 
32 ARNG Teams; and 10 Troop Program Unit USAR CPTs) trained and 
certified to the joint standard. As part of a Total Force solution, 
Joint training and certification will provide the Army the needed 
flexibility to align RC cyber teams to meet both Joint and Army 
cyberspace priorities.
    Dr. Heck. What are the Army Cyber Private Public Partnership 
initiatives (P3i)?
    General Odierno. A key Army cyber public private partnership 
initiative is the Army Cyber Institute (ACI) located at West Point, New 
York. The ACI is a Secretary of the Army and Chief of Staff of the Army 
priority initiative that performs four major functions: outreach, 
advising, research, and education, in that order of priority. The ACI 
performs and enables outreach to bridge gaps and prompt information 
exchange across Army, military, academic, industrial and governmental 
cyber communities. They work closely with Army Cyber Command and U.S. 
Cyber Command/NSA to ensure their efforts are synchronized and limited 
resources are employed to maximum effect.
    At the executive and action officer levels, the Army CIO 
consistently participates in a variety of engagements with private and 
public sector partners to shape Army modernization efforts and enhance 
cyber security capabilities. It is imperative that networks are kept 
current and up-to-date with the rapid changes in technology. Currently 
the CIO/G6 has been engaged in a comprehensive effort with entities and 
organizations across the Army to assess current capabilities, on-going 
modernization efforts, and future IT and cyber security requirements.
    Dr. Heck. What are the Army Reserve's Cyber P3i activities?
    General Odierno. The United States Army Reserve (USAR) is seeking 
private and public partners in the cyber domain to enhance individual 
and unit readiness through extended partnerships creating operational 
experiences, developing leaders, and advancing cyber skills through 
alternate resourcing opportunities and P3i networks. To date, the 
program has over six partners with two statements of intent at the 
university provost/dean level. The participating universities include: 
the University of Texas at San Antonio, the University of Washington 
(Seattle, Tacoma, Bothell), the University of Massachusetts/Fitchburg, 
the Naval Post Graduate School, the University of Denver, and the 
University of California-Davis. The USAR has additional universities 
working to link into the USAR cyber program. The program is designed to 
tie University Cyber Security programs directly to Cyber Security/
Information Assurance positions' key skills and attributes (KSA). The 
intent is to catalyze the Soldier development for novice, apprentice 
and master levels of cyber security using the university degree and 
certificate programs. Various Army National Guard (ARNG) organizations 
have also signed cyber partnerships with educational institutions to 
include the Georgia ARNG, the Mississippi ARNG, the Michigan ARNG, the 
American Samoa ARNG, and the ARNG Professional Educational Center to 
name a few. These partnerships assist the ARNG and universities alike 
by increasing the training, educational, and recruitment throughout.
    Dr. Heck. What is ARCYBER's Training Readiness Authority plan?
    General Odierno. Like other Army units, Army Cyber conducts 
training and readiness reporting to meet the requirements established 
by regulation and law. For the Cyber Mission Force teams, the 
developing USCYBERCOM Training and Readiness (T&R) Manual will serve as 
the guideline for Cyber Mission Force (CMF) readiness. Currently, the 
T&R manual has draft core Mission Essential Tasks (METs) that were 
derived from DOD Universal Joint Task List (UJTL); when finalized, 
these METs will provide a common set of tasks against which like teams 
can train and assess readiness. When approved, Army Cyber Command will 
use the USCYBERCOM T&R Manual as our fundamental tool to build and 
maintain CMF team readiness.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. I would like to compliment the Army on the successful 
execution of the ITEP program (Improved Turbine Engine Program) to 
date. It incorporates competition, best business practices, acquisition 
reform measures and helps maintain a cutting edge technological and 
industrial base. Unlike many of the recent unsuccessful aviation 
programs, this one has valid, unchanging requirements and is executing 
and testing very successfully. It benefits from strong Congressional 
support and Army/Industry partnering. This is critical because the ITEP 
investment benefits both the current Black Hawk and Apache fleet, and 
reduces risk for the next generation Future Vertical Lift helicopter. I 
encourage the Army to sufficiently fund ITEP to maintain program 
momentum and a 12-18 month Technology Maturity/Risk Reduction phase. I 
appreciate your continued support of this priority program and we all 
look forward to the increased capability and tremendous fuel and cost 
savings ITEP provides.
    Secretary McHugh and General Odierno. Improved Turbine Engine 
Program (ITEP) remains an important component of the Army Aviation 
modernization strategy. This engine upgrade program will allow the 
Army's current fleet of Black Hawk and Apache helicopters to perform 
their full range of missions in high/hot environments like Iraq and 
Afghanistan, while simultaneously achieving much needed reductions in 
fuel consumption and flying hour costs. While the Army faces 
significant fiscal pressures in the current budget environment, we plan 
to continue funding ITEP at previously planned levels through the 
Technology Maturity/Risk Reduction phase of the program. The Army 
requested $79.9M for ITEP in FY14 and received full funding. The Army 
is requesting $39.3M for this effort in FY15.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. NUGENT
    Mr. Nugent. Concerning the Department of the Army's proposed cuts 
to the Army National Guard--the Adjutants General presented an 
alternative solution that paid the Army National Guard portion of the 
BCA bill while sustaining higher capability and force structure for the 
National Guard, and therefore for the Army. (1) Why was this proposal 
rejected? (2) Given the lack of agreement on the best way to ``right-
size'' the Army, what opposition do you have to establishing an 
independent commission to make recommendations on appropriate force 
structure for all three components? (3) Will you support taking the 
next 9-12 months to conduct a comprehensive study of the proper AC/RC 
force mix and how the structure should be best tailored to fulfill 
mission requirements that are consistent with available resources?
    Secretary McHugh. The Army strongly opposes an independent force 
structure commission on the grounds that it is unnecessary and 
untimely. Our restructure initiative is based on a comprehensive Total 
Force study. It was an open process and we received input from many 
parties, including the National Guard Bureau. We are confident we have 
reached the right conclusions. Further, a commission would essentially 
freeze our end strength in place, which will prevent us from beginning 
to implement necessary changes and force the Army to make severe cuts 
to readiness and modernization programs, neither of which has adequate 
funding right now. Additionally, an independent review of the Army's 
plans has already been conducted by the Office of the Secretary of 
Defense Cost Assessment and Program Evaluation. Make no mistake, the 
recommendations we have proposed have been forced on us by the Budget 
Control Act's spending caps. We would prefer not to make these changes, 
but unless something is done to adjust the BCA caps beginning in fiscal 
year 2016, these changes will become unavoidable.
    Regarding the ``$1.7B NGB Proposal,'' it was considered 
independently by the Secretary of the Army and the Secretary of Defense 
and was rejected by both, because it does not meet the Defense 
Strategic Guidance without additional investment; it decreases 
fulfillment of Combatant Command contingency plans and steady-state 
operational requirements; it reduces the readiness of the Army National 
Guard; and it increases costs in comparison to the Department of the 
Army plan. Due to the Budget Control Act (BCA), Army Aviation's total 
obligation authority for aircraft modernization and acquisition has 
been reduced by $3B per year through FY19, and training and sustainment 
dollars are reduced by 40 percent from FY12 levels. These reductions 
make the previously approved (pre-BCA) Aviation Force Structure and 
Aircraft Modernization plans untenable, requiring a new approach.
    Prior to the BCA, Army Aviation's modernization and force structure 
plan was to continue to grow the Active component to 13 Combat Aviation 
Brigades (CAB); continue to modernize the AH-64 Apache, UH-60 
Blackhawk, and CH-47 Chinook helicopter fleets; upgrade the OH-58D 
Kiowa Warrior (at a cost of $10B); and conduct a costly service life 
extension program (SLEP) or even more costly replacement of the aging 
TH-67 training fleet. The Army National Guard and Army Reserves would 
continue to receive modernized UH-60, AH-64 and CH-47 aircraft and 
retain all of their structure.
    To continue with the original aircraft modernization plan under BCA 
constraints (upgrade OH-58D Kiowa Warrior, continue to modernize the 
AH-64, UH-60 and CH-47 fleets, and SLEP TH-67) would require the 
deactivation of 5 Active and Reserve aviation brigades and the 
divestment of their associated aircraft (-464 aircraft). This would 
have been a significant loss of structure and numbers of modernized AH-
64, UH-60 and CH-47 aircraft, just to retain the costly legacy OH-58D 
and TH-67 aircraft. For that reason, I directed a fundamental 
reassessment of Aviation structure in the Active, National Guard and 
Reserve forces. My guidance was to determine the best force structure 
and modernization balance to retain the most capabilities and capacity 
in highest demand by our Combatant Commanders and recurring civil and 
homeland defense requirements.
    The new approach, known as the Aviation Restructure Initiative 
(ARI), uses the Budget Control Act level force and does not add cost to 
the Army's budget. ARI calls for reducing and reconfiguring the number 
of Active aviation brigades from 13 to 10, which enables the retention 
of one aviation brigade per Active component division. The Reserve 
component will retain 12 Aviation Brigades but will be restructured to 
a common organizational structure for 10 Brigades optimized for 
assault, lift, and MEDEVAC missions--most in demand for Defense Support 
of Civil Authorities (DSCA) missions.
    To execute ARI, we will divest 338 OH-58D Kiowa Warriors and use 
the previously designated OH-58D cockpit upgrade dollars to reinvest in 
the training base and other modernization efforts. We will transfer all 
of the AH-64s from the National Guard to the Active component and use 
the AH-64, teamed with unmanned systems, in armed reconnaissance 
squadrons to replace the loss of the Kiowa Warrior Squadrons in the 
Active component. We will transfer 159 X UH-60s from the Active 
component to convert 4 of 10 Reserve component AH-64 Battalions to UH-
60 (2 USAR and 2 ARNG). The National Guard will gain 111 UH-60s and the 
USAR will gain 48 UH-60s over current structure. We will divest the 
legacy TH-67 and OH-58A/C training fleet and replace them with UH-72A 
Lakota helicopters taken from the Active component and 100 newly 
procured Lakotas. In a compromise with the National Guard, the Office 
of the Secretary of Defense directed the Army to procure the 100 new 
Lakotas to address concerns raised by the Guard during the planning 
process for ARI. The National Guard will retain all of their 212 UH-
72As specially equipped for the southwest border mission and other 
requirements in permissive, non-combat environments. This will give us 
a modernized, next generation glass cockpit, dual engine training 
helicopter. These aircraft will train all new Army aviators, regardless 
of component.
    Eliminating three of seven entire fleets of legacy aircraft (OH58D 
Kiowa Warrior, TH67, OH58A/C), remissioning Apache helicopters to the 
armed reconnaissance role in addition to their traditional attack role, 
dual-purposing our UH-72A Lakota helicopters for both the homeland 
defense role and initial pilot training, and growing our lift 
helicopter fleets in the Army National Guard will allow us to retain 
the maximum force structure and modernized aircraft across the Total 
Army to meet the demand for Aviation across the Combatant Commands and 
States.
    Although the resulting rotary-wing force will be smaller by 798 
aircraft to pre-BCA levels and cuts fall disproportionately on the 
Active component (-23 percent) versus the National Guard (-8 percent), 
divesting the OH-58 and TH-67 fleets and moving the AH-64s from the RC 
to the AC allows us to preserve two additional Combat Aviation Brigades 
and improve the quality of Aviation Training while retaining a fully 
modernized aviation force across the Total Army.
    The NGB proposal, actually increases costs. While the NGB proposal 
appears neutral with respect to the ARNG budget, it does not account 
for the significant increase that would occur to the $3.25B per year 
that the Department of the Army already funds from the Regular Army 
budget to support the Army Guard. Specifically, the NGB proposal does 
not account for increases of $300M annually for additional end strength 
and structure related costs such as basic combat training, specialized 
skill training, contractor maintenance support, payroll processing and 
officer accessions. Nor does it account for a $350M annual increase in 
aviation operations and sustainment type costs and the $4B one-time 
cost that would result from not executing the Aviation Restructure 
Initiative as planned.
    The NGB proposal decreases readiness by reducing Operations and 
Maintenance funding that is used to resource Soldier, unit and 
facilities readiness. The proposal funds only 50-to-80 percent of 
required duty MOS, functional and professional development training, 
resulting in significant numbers of Guardsmen assigned to units 
untrained in their military duties and leadership responsibilities. The 
proposal reduces unit readiness, with only two Guard BCTs funded above 
individual-crew-squad level of readiness. The proposal's reductions to 
readiness would lengthen post-mobilization training that ARNG units 
require to respond to Combatant Command operational and contingency 
requirements, decreasing the Army Guard's viability as an operational 
reserve. The proposal also decreases MILCON funding by $100M per year 
and decreases facilities sustainment funding, negatively impacting Army 
Guard infrastructure.
    The NGB proposal does not accurately capture the cost of 
turbulence. The Department of the Army estimated and budgeted 
turbulence costs at $310M over five years, or approximately $62M per 
year. The NGB estimated turbulence costs at $1B, but this estimate 
included $275M in costs to implement the Aviation Restructure 
Initiative that are already accounted for in the Regular Army budget; 
$360M in facilities upgrades for unit conversions that have not been 
substantiated; and $55M in additional recruiting costs that the 
Department of the Army believes is excessive and unnecessary given the 
reduction of the force.
    The NGB proposal also does not accurately depict the impact of 
turbulence. OSD and Army leadership have testified to their desire to 
maintain ARNG end strength at 335K as part of a 450K/335K/195K force, 
which would significantly reduce turbulence if full BCA/sequester cuts 
can be avoided. NGB turbulence projections of the Department of the 
Army plan are overstated in that they represent a highly-unlikely 
absolute-worst-case that every possible position associated with 
potential structure adjustments is impacted. Even if the worst case 
were realized, the average annual turbulence that would result during 
the five-year period of implementation would be less than the 
approximately 15 percent annual turnover the Army Guard experiences due 
to normal attrition.
    Finally, the NGB proposal increases strategic and operational risk 
by reducing required unit readiness and operational responsiveness in 
order to preserve less-ready force structure. The proposal reduces the 
Total Army's ability to meet Combatant Commander contingency plans and 
steady-state operational requirements, extending the length of 
operations at increased risk to mission accomplishment and likelihood 
of additional casualties. Because the NGB proposal costs more and does 
not meet BCA-driven funding reductions, it would require additional 
reductions of $650M per year to other accounts, further degrading 
readiness and equipment modernization. The NGB proposal decreases 
readiness, increases risk, costs more, and violates the defense 
strategic guidance.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. COOK
    Mr. Cook. After cancelling 7 brigade level trainings at the Combat 
Training Centers in 2013, your statement indicates that the Bipartisan 
Budget Agreement permits 19 BCT trainings in FY15. Do you anticipate 
funding all 19 trainings in FY15? And what do you estimate the impact 
would be for training in FY16 if sequestration persists?
    General Odierno. Yes, if the Army receives funding levels supported 
by the Bipartisan Budget Agreement then 18 Brigade Combat Teams (BCTs) 
will conduct full rotations at maneuver Combat Training Centers (CTCs) 
in FY15, with another BCT joining a Combat Aviation Brigade and Special 
Operations forces in an aviation exercise. If sequestration persists in 
FY16, we will be required to significantly reduce home station training 
in order to fund CTC rotations, which will impact our overall readiness 
posture.
    The reduction in home station training may preclude the full 
training progression of some BCT's prior to execution of a CTC 
rotation. Without the benefit of sufficient home station training, BCTs 
could begin the CTC rotation at a lower level of training readiness. As 
a result, CTC rotations may not produce the maximum BCT capability, in 
terms of training readiness.

                                  [all]



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
